U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  U.S. Census Bureau


      Census 2010: Key Challenges to
                       Enumerating
       American Indian Reservations
      Unresolved by 2006 Census Test
       Final Report No. OSE-18027/September 2007




           Public Release




                     Office of Systems Evaluation
                                                   UNITED STATES DEPARTMENT OF COMMERCE
                                                   The Inspector General
                                                   Washington, D.C. 20230




                                 SEP 19 2007



MEMORANDUM FOR:               Charles Louis Kincannon
                              Director
                              U.S. Census Bureau

                              Preston Jay Waite
                              Deputy Director
                              U.S. Census Bureau


FROM:                         Elizabe~W
                              Acting Inspector General

SUBJECT:                      Final Inspection Report
                              2010 Census: Key Challenges to Enumerating American
                              Indian Reservations Unresolved by 2006 Census Test
                              (OSE-18027)

Attached is our final report on the 2006 test of update/enumerate, conducted on the
Cheyenne River Reservation in South Dakota. The report presents our evaluation of the
test's conduct and outcomes, particularly with regard to the impact ofthe new query
Census introduced for the purpose of improving the count of all household members
(within-household coverage). We also looked at the success of the overall operation in
accurately enumerating the reservation population.

Overall, we found the new query had little impact on reservation enumerations,
ultimately leading to the addition of only one person. We also found that problems with
the update/enumerate process, combined with the inability to complete the operation,
seriously hindered the bureau's ability to improve the 2010 count of reservation
populations. In most cases, those problems were caused by the poor quality of many of
the maps and address lists provided by address canvassing and the lack of GPS
navigation in this geographically challenging environment, a 2.8-million-acre reservation
dotted with some 3,000 housing units on mostly unmarked roads.

In its response to our draft report, Census challenged our methodology, findings, and the
bulk of our recommendations. We believe the bureau did not have a clear understanding
of the focus, intent, and evaluation procedures used for this review, and have made
significant modifications to the final report in order to clarify those areas.
We request that you provide us with an action plan describing the actions you have taken
or plan to take in response to our recommendations within 60 calendar days of the date of
this report. Please note that for certain recommendations, our discussion of the bureau’s
response presented after each finding highlights topics we would like the action plan to
address.

We appreciate the cooperation and courtesies extended to us during our review by Census
Bureau headquarters, and regional and field office personnel. If you would like to discuss
this report or action plan, please call me at (202) 482-4661 or Judith Gordon, assistant
inspector general for systems evaluation, at (202) 482-5643.

Attachment

cc: Cynthia A. Glassman, Acting Under Secretary for Economic Affairs
    Teresa Angueira, Associate Director for Decennial Census, U.S. Census Bureau
    Marilia A. Matos, Associate Director for Field Operations, U.S. Census Bureau
    Richard W. Swartz, Associate Director for Information Technology and Chief
       Information Officer, U.S. Census Bureau
    Otto J. Wolff, Chief Financial Officer and Assistant Secretary for Administration,
       U.S. Department of Commerce         

    Barry C. West, Chief Information Officer, U.S. Department of Commerce 





                                            2

U.S. Department of Commerce                                                                            Final Report OSE-18027

Office of Inspector General                                                                                    September 2007


                                                               CONTENTS 


Summary .............................................................................................................................. i 

Introduction......................................................................................................................... 1 

Objectives, Scope, and Methodology ................................................................................. 5 

Findings and Recommendations ......................................................................................... 8 

I. 	 Flaws in the Update/Enumerate Process, Combined with Failure to Complete the 

     Operation, Undercut the Bureau’s Ability to Improve the 2010 Count of 

     Reservation Populations.................................................................................................8 

     A. Address Canvassing’s Failure to Adequately Improve Maps and Housing 

        Unit Descriptions Caused Inefficiencies and Errors............................................... 9 

     B. Without GPS Assistance, Completing Assignment Areas Was Extremely 

        Difficult, Inefficient, and Error-Prone .................................................................. 13 

     C. The Quality Check of Updated Maps and Address Lists Was Unable to 

        Handle the Multitude of Errors It Encountered .................................................... 14 

II. Changes Designed to Improve Coverage Yielded Negligible Increase in the 

    Count............................................................................................................................18 

     A. Limited Test Scope Produced Disappointing Results .......................................... 18 

     B. Absence of Benchmarks Undermined Census’s Ability to Assess 2006 Test 

        Results and Improve 2010 Coverage.................................................................... 20 

III. Leadership Devoted to Transforming Census’s Approach Is Needed to Improve 

     the Count on American Indian Reservations ...............................................................22 

Summary of Recommendations........................................................................................ 25 

Appendix: 2006 Census Test Objectives .......................................................................... 27 

Agency Response 

U.S. Department of Commerce                                                Final Report OSE-18027

Office of Inspector General                                                        September 2007


                                              SUMMARY 


In spring 2006, the Census Bureau tested the update/enumerate               The
                                                                             The Cheyenne
                                                                                   Cheyenne River
                                                                                               River
process it plans to use in the 2010 decennial census to count                     Reservation
                                                                                  Reservation
American Indians living on reservations, Alaska Natives, and other
hard-to-find rural populations. During update/enumerate, Census
staff go door to door to collect population data. They are also
instructed to make any needed corrections to the bureau-generated
maps and address lists they use to locate housing units. Census chose
South Dakota’s Cheyenne River Reservation as the site for the test— The Cheyenne River
a choice we believe was a good one because it posed many of the          Reservation, where the 2006
                                                                         update/enumerate test took
challenges that have long hindered efforts to accurately count           place, encompasses more than
reservation populations: a severe housing shortage and large, rural      2.8 million acres in rural South
geography punctuated by small communities that have mostly               Dakota, and is similar in size to
                                                                         thethe
                                                                         to  state
                                                                                state
                                                                                   of of
                                                                                      Connecticut.
                                                                                         Connecticut.
unnamed streets and unnumbered houses. Update/enumerate is an            Source: U.S. Census Bureau
extremely labor-intensive operation that, in the 2000 decennial,
counted 1.1 million households (of 116 million nationwide) at a cost of $32 million.

American Indians have historically been undercounted in decennial censuses. Enumerating those
who live on expansive, rural reservations is especially difficult because—in addition to having
unmarked streets and houses—they often have high numbers of households in which several
families share a single residence. When enumerators come knocking on Census Day, family
members are often unwilling or unable to accurately report how many people actually reside at
the address. To prompt a fuller accounting of such cases in 2010, Census has revised the
“coverage” question on the enumeration questionnaire by adding a new query that specifically
asks if other individuals or families reside in the home. It has also established a separate,
downstream operation, called coverage follow-up, for collecting information from households
that have been identified through the coverage question as potentially having additional
members. These new approaches were put to the test on the Cheyenne River Reservation.

     Address Canvassing                   Update/Enumerate                   Coverage Follow-up
       July – September 2005                 March – May 2006                   May – August 2006
Collects address and geographic      Collects census information by    Collects additional information to
location information for all         conducting personal interviews    improve the population count.
housing units. This information is   at every housing unit. The        Staff telephone or visit individuals
used in the subsequent update/       operation also updates maps       from selected housing units (e.g.,
enumerate operation.                 and address lists, and conducts   all households that answered
                                     various quality control checks.   “yes” to a coverage question
                                                                       during update/enumerate).

OIG Review of Update/Enumerate Test Reveals Serious Weaknesses

We evaluated the conduct and early outcomes of the update/enumerate test, taking a specific
look at the impact of the new query on improving “within-household coverage”—that is,
counting all members of reservation households—and the success of the overall operation in
accurately counting the reservation population. We also assessed whether enumerators updated
maps and address lists correctly and quality control staff provided an effective quality check of
these revisions. Because the earlier address canvassing operation impacts update/enumerate, we


                                                     i
U.S. Department of Commerce                                                         Final Report OSE-18027
Office of Inspector General                                                                 September 2007

reviewed the accuracy and usability of the map and address information from this prior
operation. We also reviewed the data from the subsequent coverage follow-up operation to
ascertain whether Census was able to capture full enumeration information for additional
individuals not counted during the update/enumerate process.

The direct costs of the 2006 update/enumerate operation were high: $82 per housing unit
enumerated. By comparison, the Census 2000 nationwide update/enumerate operation cost $35
(in 2006 dollars) per housing unit.1 Even recognizing that reservations like Cheyenne River may
pose challenges not typical of the overall update/enumerate operation, we were prompted by this
contrast in unit costs to question the efficiency and effectiveness of the methods and procedures
tested for improving the count on American Indian reservations.

Our review revealed that the new query tested in 2006 had disappointingly little impact on
reservation enumerations: despite the test’s primary objective of finding more people, the new
query identified only 16 households as having additional members, and coverage follow-up
added only one person to these households. Given the high per unit cost for the tested
update/enumerate operation and the meager results, it is clear that the bureau should rethink its
approach and make well-designed changes to help improve the accuracy of reservation
enumerations in the 2010 decennial. Our specific findings are as follows:

Flaws in the Update/Enumerate Process, Combined with Failure to Complete the
Operation, Undercut the Bureau’s Ability to Improve the Reservation Count in 2010
Cheyenne River Reservation, with about 3,000 housing units, was divided into 215 assignment
areas, each of which needed to be enumerated and then pass quality control within a 12-week
time frame. But 84 areas (39 percent) had not passed quality control by the operation’s end, and
our analysis of an enumeration data sample from both update/enumerate and the subsequent
coverage follow-up identified a significant number of individuals who were not accounted for in
either operation. Census’s raw data from the test indicated that the reservation population had
actually decreased since 2000, which seems unlikely. In fact, the bureau’s own 2006 estimate of
the reservation population showed a 3.9 percent increase.

We identified three key problems that caused frequent errors and so slowed the pace of
update/enumerate that it could not finish within the 12-week time frame: (1) Unclear, inaccurate
maps and incorrect address lists generated during address canvassing and supplied to
update/enumerate staff made it nearly impossible for enumerators to find all housing units and
for quality control staff to conduct their follow-up checks. (2) Update/enumerate staff did not
have GPS technology to compensate for poor maps and address lists and help them navigate their
assignment areas. (3) The multitude of errors made during enumeration caused a higher than
expected number of areas to fail quality control and require recanvassing, which in turn,
overwhelmed the quality control check and crippled the progress of the operation. (See page 8.)

Changes Designed to Improve Coverage Yielded Negligible Increase in the Count
Disappointed with the results from the 2000 decennial coverage question, the bureau decided it
needed to revise the coverage question used in update/enumerate to better identify all household

1
  Both dollar figures represent direct field costs and do not include headquarters costs and local census office
infrastructure costs.


                                                           ii
U.S. Department of Commerce                                                Final Report OSE-18027
Office of Inspector General                                                        September 2007

members in 2010. It did so by adding a query soliciting information about “other individuals or
families staying” in the household for assessment in the 2006 test (see figure below). It also
decided—for reasons not clearly documented—to enumerate individuals identified by this new
query in the later coverage follow-up operation rather than on the spot, as had been done in
Census 2000.

                          Coverage Question Asked By Enumerators




                                   Source: OIG facsimile of Census forms


As noted earlier, Census identified only 16 households with additional residents through the new
query, and only one person in those households was added to the 2006 count.

One factor in the poor outcome may have been a failure to actually test the query. The majority
of enumerators we observed never even asked respondents the new query, which was fourth in
the list of five within the coverage question. They typically asked only the first or second query
before checking “no” for all options. Because Census decennial managers did not adequately
monitor enumerators conducting interviews in the field or their incoming questionnaires, the
bureau did not realize enumerators were not asking the full question or that few households were
being identified as having additional people still to be enumerated. Neither did the bureau have
benchmarks against which to evaluate test results and identify problems as the operation
progressed. And the timing of the coverage follow-up operation—which continued for 3 months
after update/enumerate had completed—was another likely factor in the understated results, as
respondents may not have recalled who was in the household so many weeks, or even months,
earlier. (See page 18.)




                                                    iii
U.S. Department of Commerce                                        Final Report OSE-18027

Office of Inspector General                                                September 2007


Leadership Devoted to Transforming Census’s Approach Is Needed to Improve the Count
on American Indian Reservations
Despite the difficult challenges to improving the count of reservation populations, the Census
Bureau did not have any headquarters official whose principal responsibility was to plan and
implement the 2006 update/enumerate test for American Indian reservations. Although many
employees work on American Indian issues, no headquarters official was assigned leadership
responsibility for the operation or charged with the singular task of improving enumeration on
reservations for 2010. This may in part explain how little the bureau modified its traditional
enumeration method for the 2006 test. We therefore question the priority and attention the
bureau is giving to developing methods for reducing the undercount on American Indian
reservations. (See page 22.)

What We Recommend

In order to improve the count of reservation populations in 2010, we recommend that the
Director of the Census Bureau assign a senior headquarters official specific responsibility for
leading the effort to identify, implement, and monitor changes to the update/enumerate process
on American Indian reservations. This effort should, at a minimum, generate actions designed to
improve the address canvassing operation so that it produces better maps and address lists for
update/enumerate staff. We offer several options for consideration in accomplishing this
objective, including

   $   Improving update/enumerate maps by
          ≈ adding current landmark information and community names,
          ≈ providing clear assignment area boundary and location information,
          ≈ placing small settlements in a single assignment area and ensuring small blocks
             contained in geographically large blocks are both visible and legibly labeled, and
          ≈ developing a process to increase the scale for concentrated areas of housing units.
   $ Ensuring the address canvassing operation provides an appropriate level of information
     for the later operations by
        ≈ verifying that every address field has an entry, and
        ≈	 identifying and prioritizing the important distinguishing structural characteristics
            to be used to describe housing units and emphasizing their importance in the
            training for reservation canvassers.

   $   Using handheld computers or an inexpensive off-the-shelf device equipped with GPS in
       conjunction with the housing unit GPS coordinate information obtained during address
       canvassing.

We also recommend that the bureau
  $ Modify quality control procedures for update/enumerate on American Indian reservations
       to better identify missed or duplicated housing units,
  $ Enhance enumerator training, supervision, and quality control to ensure that the coverage
       question is asked as intended, and


                                               iv
U.S. Department of Commerce                                         Final Report OSE-18027
Office of Inspector General                                                 September 2007

   $ Reconsider the decision to delay additional enumerations identified via the coverage
     question to coverage follow-up.

A summary of all recommendations can be found on page 25.

Census Response and OIG Comments

In responding to our draft report, Census challenged our methodology, findings, and the bulk of
our recommendations. But we believe that much of its disagreement is based on a
misunderstanding of our focus, intent, and evaluation procedures, all of which we have clarified
in this final version. We summarize and address Census’s major concerns in the corresponding
sections of the report and attach the full text of its comments.




                                                v
U.S. Department of Commerce                                                       Final Report OSE-18027

Office of Inspector General                                                               September 2007


                                          INTRODUCTION 



The Census Bureau conducted a partial census of population and housing, with Census Day
occurring on April 1, 2006, in two locations—a portion of Travis
County, Texas, that includes parts of the city of Austin and its        The Cheyenne River
suburbs, and the Cheyenne River Reservation and Off-Reservation             Reservation
Trust Land in South Dakota. This 2006 census test sought to
determine the validity and effectiveness of a variety of operations,
procedures, and systems that are planned for the 2010 decennial
census.1
                                                                            The Cheyenne River
Continuing the Office of Inspector General’s evaluations of Census          Reservation, where the 2006
                                        2
site testing for the upcoming decennial, we reviewed the bureau’s           update/enumerate test took
enumeration of the Cheyenne River Reservation, in which it tested a         place, encompasses more than
                                                                            2.8 million acres in rural South
modified approach for improving how it counts residents in the              Dakota, and is similar in size
overcrowded housing that is common on American Indian                       to the state of Connecticut.
reservations. The issues and operations at the Travis County, Texas,        Source: U.S. Census Bureau

site differ from those found on reservations and are not evaluated in this report.

Background

American Indians have historically been                             American Indian and Alaska Native
undercounted in decennial censuses. The                               2006 Census Test Objectives
Census Bureau’s overall objective for the                Develop, test, and evaluate improved enumeration
Cheyenne River Reservation was to develop,               methods on an American Indian Reservation.
test, and evaluate improved enumeration
methods for American Indian and Alaska                   A. To implement methods to improve within household
Native populations. Its specific focus was on               coverage on American Indian Reservations.
                                                         B. To implement a Tribal Liaison Program on American
improving “within-household coverage”—that                  Indian Reservations.
is, counting all members of reservation                  C. To develop, implement, and evaluate a consultation
households, which often contain a primary                   process with the Tribe and/or Tribal Leaders.
resident family plus additional families or
                                                         Source: Revised 2006 Census Test Project Management Plan, July 2006
individuals—and strengthening tribal
relations.




1
 See the appendix for a list of all 2006 census test objectives. 

2
 Previous OIG reports on Census site tests include Enumerating Group Quarters Continues to Pose Challenges, 

Report No. IPE-18046, September 2006; Valuable Learning Opportunities Were Missed in the 2006 Test of Address 

Canvassing, Report No.OIG-17524, March 2006; and Improving Our Measure of America: What the 2004 Census
Test Can Teach Us in Planning for the 2010 Decennial Census, Report No. OIG-16949, September 2004.


                                                  1                                                             

U.S. Department of Commerce                                                      Final Report OSE-18027

Office of Inspector General                                                              September 2007


To conduct the decennial census, the bureau identifies every place where people live or stay most
of the time via its computer inventory of addresses and physical/location descriptions and its
digital maps,3 then either mails a questionnaire or visits every housing unit to obtain information
about household members.4

The vast majority of our nation’s households receive and return the census questionnaire by
mail. However, certain American Indian reservations and rural areas are not candidates for
mailed questions either because housing units in these communities do not have house number
and street name mailing addresses or are otherwise hard to locate and count. In these cases,
temporary Census employees visit every household and collect the census information through
a doorstep interview. In Census 2000, this labor-intensive operation, called update/enumerate,
counted 1.1 million households (out of 116 million nationwide) at a cost of $32 million.

Update/Enumerate Process Tested at the Cheyenne River Reservation

The 2006 test of update/enumerate operated largely as it would during an actual decennial, with
managers, office staff, and enumerators working under realistic production deadlines and
pressures. The bureau does not certify population counts taken for the 2006 test or release other
data products to the public, but subjects the enumeration data to internal evaluations intended to
inform decisions for the 2010 census. For the 2006 census test, the bureau established a field
office on the reservation, which was managed by the bureau’s Denver Regional Office. During
the decennial, the closest office will be in Rapid City, South Dakota, over 100 miles away.

Although this review focuses on update/enumerate, the earlier address canvassing operation
impacts the enumeration, and the subsequent coverage follow-up operation verifies results.
Below is a summary of the three operations.

      Address Canvassing                     Update/Enumerate                       Coverage Follow-up
       July – September 2005                    March – May 2006                       May – August 2006
Collects address and geographic        Collects census information by        Collects additional information to
location information for all           conducting personal interviews        improve the population count.
housing units. This information is     at every housing unit. The            Staff telephone or visit individuals
used in the subsequent update/         operation also updates maps           from selected housing units (e.g.,
enumerate operation.                   and address lists, and conducts       all households that answered
                                       various quality control checks.       “yes” to a coverage question
                                                                             during update/enumerate).

Address canvassing is a method of systematically traveling every street in an assignment area,
block by block, to find and record information about every place where people live or could live
and to update and correct the map of the assigned area. Address canvassing staff, using handheld
computers with mapping capability and global positioning system (GPS) technology, attempted
to verify the address and location of all housing units on the reservation to ensure the bureau’s

3
  The address lists and location descriptions are known as the “master address file.” The maps are known as TIGER®
maps, short for the Topologically Integrated Geographic Encoding and Referencing system that produces them.
4
  Title 13 of the United States Code authorizes the Census Bureau to conduct censuses and surveys and requires that
any information collected from the public under the authority of Title 13 be maintained as confidential. Examples of
census test data in this report have been altered to comply with Title 13.


                                                    2                                                      

U.S. Department of Commerce                                                       Final Report OSE-18027
Office of Inspector General                                                               September 2007

address file and digital map database were current and complete. The GPS technology allowed
canvassers to trace their movement on a map to an address and—for every housing unit—place a
“map spot” indicating it on the map and collect that location’s latitude and longitude coordinates.
Canvassers also used the handheld computers to add (1) road names to the TIGER® maps and (2)
housing unit locations and descriptions to the address fields.

In preparing for update/enumerate, Census used the location information on 3,053 housing units
from address canvassing and divided the reservation into 215 assignment areas, each to contain a
manageable number of housing units. An assignment area could be a single TIGER® “block” (a
geographic area bounded by roads, rivers, or invisible lines such as county borders) if it
contained a sufficient number of housing units; otherwise it was a combination of adjacent
TIGER blocks. Each enumerator was initially given one assignment area; upon its completion, a
second would be assigned, a process that continued until all had been assigned.

Using paper maps and address lists, enumerators traversed their assignment areas and obtained
household member information via paper questionnaires, submitting completed ones to the
reservation field office daily. Their primary task during update/enumerate was to collect resident
information from all housing units in their assignment areas as of April 1, 2006. But they were
also instructed to correct, add, or delete addresses and revise maps to reflect changes that had
occurred since address canvassing, such as housing built or demolished. Once enumerators
finished an assignment area, they submitted the address lists and maps to the field office for
review by quality control staff.

The quality control program consisted of three operational components. First, the quality control
staff conducted a follow-up interview for a sample of households assigned to each enumerator to
verify that the required interview had been conducted and to independently collect information to
be compared to results of the original interview. Second, for each assignment area, using the
same paper maps and address lists as the enumeration staff, the quality control staff conducted a
quality check of the address updating results by canvassing eight consecutive housing units
beginning at a randomly assigned start address.5 Third, also for each assignment area, quality
control staff verified all deleted housing units and house number changes, as well as duplicates.

If critical discrepancies were found in the quality check, the assignment area was sent back to the
enumeration staff and the entire area recanvassed. Interviews were only conducted at housing
units identified as having been missed during the original enumeration. This recanvassing was
subject to another quality check. If the area failed again, it was recanvassed one final time.

The coverage follow-up operation uses the update/enumerate results to determine households
whose members may have been under- or overcounted. For Cheyenne River, about 500 housing
units were selected to undergo this operation because they appeared to have duplicate or missed
persons or contained other incorrect data. To collect the best information available, these housing
units were reinterviewed in their entirety.



5
 Census refers to this process, in which quality control staff compare enumerators’ address updates against their
own observations, as the dependent quality check.


                                                     3                                                      

U.S. Department of Commerce                                                         Final Report OSE-18027
Office of Inspector General                                                                 September 2007

The cost of the 2006 update/enumerate operation—$82 per enumerated housing unit—was high.
By comparison, the Census 2000 nationwide update/enumerate operation cost $35 (in 2006
dollars) per housing unit. Even recognizing that reservations like Cheyenne River may pose
challenges not typical of the overall update/enumerate operation, we were prompted by this
contrast in unit costs to question the efficiency and effectiveness of the methods and procedures
tested in improving the count on American Indian reservations.6


Census Response and OIG Comments

In responding to our draft report, the bureau complained that we had focused on only one of
three objectives developed for its test site at Cheyenne River, and had therefore overlooked other
efforts made by the bureau to improve coverage on American Indian reservations. We did, in
fact, limit our review to evaluating the bureau’s success at “implementing methods for improving
within household coverage” because this objective dealt with the actual enumeration, whose
conduct and results lend themselves to impartial evaluation. The bureau’s remaining two
objectives were to implement a liaison program and consultative process with the tribe. The
impact of such efforts on the success of update/enumerate is difficult to gauge, and no matter
what value these components might add, they cannot compensate for flaws in the mechanics of
the operation that may prevent enumerators from completing their assignment areas and quality
control staff from completing their checks. Therefore, we focused on the objective that we
believed would offer the bureau the most useful input for ensuring a successful reservation count
in 2010.

Census also stated in its response that we incorrectly described the components of its quality
control program, and we revised our description accordingly.




6
  Both dollar figures represent direct field costs and do not include headquarters costs and local census office
infrastructure costs.


                                                      4                                                        

U.S. Department of Commerce                                                      Final Report OSE-18027

Office of Inspector General                                                              September 2007




                       OBJECTIVES, SCOPE, AND METHODOLOGY 


Our evaluation focused on whether the tested operation succeeded in improving both overall
enumeration on the reservation and within-household coverage. To that end, we assessed (1) the
bureau’s success at obtaining complete and accurate enumerations in update/enumerate areas,
and (2) the effectiveness of update/enumerate and address canvassing in improving the address
lists and maps.7

With respect to Census’s specific objectives, we focused on its efforts to improve methods for
actual counting of American Indians on reservations during the update/enumerate operation.

The cornerstone of our methodology was the extensive fieldwork and analysis detailed in the
following paragraphs, combined with an examination of instruction and training documentation,
evaluations of prior related operations, Census 2000 data, Census population estimates, and
related literature.

Fieldwork: While update/enumerate was in progress, two OIG staff members spent a total of
about 25 days at the Cheyenne River Reservation observing enumerators and quality control staff
conducting their work activities in 21 of the 215 assignment areas. During this fieldwork, we
observed 17 production interviews and eight quality control assignments. Enumerators and
quality control staff were not pre-selected; rather we accompanied them in doing their work
assignments as we were able to coordinate with their schedules.

After observing that many of the enumerators we accompanied had trouble finding their
assignment areas and rarely asked the modified test question that was intended to identify all
individuals within a residence, we augmented our fieldwork with additional analysis:

•	 We compiled production statistics from periodic workload and management reports for the
   215 assignment areas to determine whether the production and quality control phases were
   completed on time.

•	 We analyzed questionnaire data received on the 8,211 persons identified by
   update/enumerate and the 1,578 persons identified by coverage follow-up to determine
   response rates for the test question and where duplication may have occurred.

•	 We selected 12 assignment areas from both sparsely and densely populated locations that
   exhibited the types of problems we observed in the field during the operation and also found
   for the majority of the reservation when we examined operational records. Using satellite
   imagery and duplicate questionnaire data, we assessed the accuracy of their address lists and
   maps.



7
  Our review began with a third objective, assessing the bureau’s progress in improving the method for designating
update/enumerate areas. However, we deferred this objective because the Census group responsible for designating
these areas had not formed at the time of our review.


                                                    5                                                     

U.S. Department of Commerce                                           Final Report OSE-18027
Office of Inspector General                                                   September 2007

Our map and address list analysis indicated that many housing units may have been missed, so
we returned to Cheyenne River Reservation after all operations had concluded to compare what
we could observe on the ground against the collected data. We canvassed 500 miles of roads in
the 12 assignment areas. We reviewed the accuracy and usability of map and address information
developed by address canvassing and then examined the map modifications made by
enumerators and quality control staff, and the units that they added, deleted, verified, missed,
duplicated, or designated as uninhabitable. Web-accessible satellite imagery together with the
TIGER maps helped us plan how we would traverse the site, and an off-the-shelf, mobile GPS
device helped us navigate while we were there.

During the course of our evaluation, we met with Denver Regional Office officials to discuss the
progress of the operation. We also observed the office’s quality review of enumerators’
completed questionnaires and modified address lists and maps before they were accepted and
sent to data entry or rejected and returned to the Census field office for rework. At the conclusion
of update/enumerate, we met again with Denver staff to obtain their overall assessment of the
operation. At Census headquarters, we met with decennial and field managers and staff,
discussing map, quality control, and coverage issues as they surfaced during our review. We
shared our preliminary findings with senior Census staff on February 23, 2007.

The Office of Inspector General conducted this review in accordance with the Quality Standards
for Inspections issued by the President's Council on Integrity and Efficiency, dated January 2005,
and under the authority of the Inspector General Act of 1978, as amended, and Departmental
Organization Order 10-13, dated August 31, 2006.

Census Response and OIG Comments

The Census Bureau challenged our methodology in several respects. It disputed our decision to
observe only 17 interviews when there are approximately 3,000 households on the test site,
claiming that our conclusions inappropriately generalized from a non-representative sample. We
had no control over the interviews we observed, but simply accompanied available enumerators
as they performed their assignments. We also went out on two separate, lengthy trips to observe
different enumerators at different times of the operation. Serious problems were evident from our
observations, which prompted us to analyze all the test enumerations to substantiate our findings.
For example, we tallied only 16 “yes” answers to the test query out of the test enumerations for
all 3,000 households, and we searched all 8,200 update/enumerate and 1,600 coverage
improvement enumerations and found that only one additional person had been counted as a
result of the new query. We also found that 13 percent of the enumerators themselves had not
been counted. These inadequate results were consistent with our observations in the field and
provide us with a sound basis for turning to our enumerator observations for insight.

Census also took exception to our selection of only 12 assignment areas for close scrutiny,
stating that our sample was biased because the chosen areas were likely to exhibit the problems
we were observing. The 12 assignment areas we scrutinized exhibited problems that were typical
and widespread throughout the reservation: after analyzing assignment area completion rates and
extensively reviewing enumerator address notes for all areas, we selected sparsely and densely
populated assignment areas that would enable us to evaluate the circumstances under which



                                             6                                                 

U.S. Department of Commerce                                         Final Report OSE-18027
Office of Inspector General                                                 September 2007

problems were encountered and reasonably gauge the effects. Because of time constraints we
were unable to review all assignment areas, but again we maintain that the assignment areas
typify the pervasive problems shown by our analysis: 84 of all 215 areas never passed the
bureau’s own quality control and others had inaccuracies despite passing quality control. The
fact that 39 percent of the assignment areas did not complete the operation prompted us to
meticulously analyze what in our judgment were clear examples of common challenges faced by
the enumerators so we could bring them to the attention of Census management and recommend
solutions.

Finally, Census incorrectly stated in its response that it does not have access to the satellite
imagery or independent listings we used to draw conclusions about coverage errors made by
Census staff and therefore cannot verify the accuracy of our findings regarding areas with missed
housing units. However, in a November 3, 2006, meeting attended by OIG, Geography Division
staff, and others, Census superimposed TIGER maps onto satellite imagery, a superior capability
that OIG does not have, which enabled all present to see the missing housing units that we found.
As for the independent listings, the list of enumerators working on Census Day that we used was
obtained from the reservation field office and verified against management reports generated at
headquarters. Census could easily use these same tools to corroborate our findings on the
housing units not found and the enumerators not counted.




                                            7                                                

U.S. Department of Commerce                                                                 Final Report OSE-18027

Office of Inspector General                                                                         September 2007




                                        FINDINGS AND RECOMMENDATIONS

I.	                   Flaws in the Update/Enumerate Process, Combined with Failure to Complete the
                      Operation, Undercut the Bureau’s Ability to Improve the 2010 Count of Reservation
                      Populations

                                                                     The Census Bureau divided the Cheyenne River
      Figure 1. Incomplete Assignment Areas
                     in Red                                          Reservation into 215 assignment areas—giving a
                                                                     staff of about 120 enumerators an average of 2
                                                                     areas each to complete during the 12-week
                                                                     operation. But the update/enumerate process was
                                                                     never completed because 84 assignment areas did
                                                                     not pass quality control—10 of these were not
                                                                     enumerated in time to undergo a quality review.
                                                                     The remaining 74 had failed quality control once
                                                                     and some even twice, but time ran out before they
                                                                     went through a final quality control check. In the
                                                                     end, the operation had a dismal 61 percent
                                                                     completion rate. Figure 1 shows the broad swaths
                                                                     of the test site where Census did not complete
 Source: Census map with OIG annotation
                                                                     update/enumerate. Figure 2 shows the time line,
                                                                     the progression of the operation, and points in the
                                                                     process where trouble began.

                                        Figure 2. Weekly Status of Assignment Areas

                      200
                      180
                      160
      Number of AAs




                                                                                                       Initial Enumeration
                      140
                                                                                                       1st Recanvass
                      120
                                                                                                       2nd Recanvass
                      100
                       80                                                                              In QC or Unassigned
                       60                                                                              Passed QC
                       40
                       20
                        0
                            1   2   3    4   5      6    7       8      9    10   11   12   Final
                                                                                            Day
                                                 Weeks of Operation

Source: OIG-compiled Census Bureau data


As figure 2 illustrates, as late as week 9, more than 80 assignment areas were still in “initial
enumeration” and yet to be subjected to the quality check. By the following week, the operation



                                                             8                                                      

U.S. Department of Commerce                                                    Final Report OSE-18027
Office of Inspector General                                                            September 2007

clearly began to stall as the cresting QC line indicates, and never recovered as staff got bogged
down trying to recanvass and do quality checks of increasingly difficult areas.

Our analysis of update/enumerate data uncovered two obvious indicators that a substantial
number of people were likely missed during the count: first, our review of the enumeration files
found that 13 percent (16 of 120) of the enumerators—themselves reservation residents—were
not listed as having been counted during the update/enumerate and subsequent coverage follow-
up operations.

Second, Census’s raw enumeration data8 from the test showed a decreased population count from
the 8,491 recorded in Census 2000 (for Dewey and Ziebach counties, which comprise the
reservation). Yet sources familiar with the demographics of the Cheyenne River Reservation
believe it is unlikely that the population is actually decreasing. Indeed, the bureau’s own 2006
population estimate of 8,818, which includes births, deaths, and migrations, shows a 3.9 percent
increase over 2000.

Our review identified several problems at the root of these symptoms that, if not resolved, will
likely hinder the bureau’s ability to obtain the best possible count on American Indian
reservations in 2010:

    •	 Unclear, inaccurate maps and incorrect address lists—produced during the preceding
       address canvassing operation—made it nearly impossible for enumerators to find all
       housing units and for quality control staff to conduct their follow-up checks.

    •	 Lacking the GPS technology that was used in the earlier operation, update/enumerate
       staff had no tools to compensate for the poor maps and guide them through their
       assignment areas.

    •	 The multitude of errors made during enumeration overwhelmed the quality control check
       and recanvassing efforts with unanticipated numbers of failures and consequent delays in
       completing these secondary phases of the operation.

A. Address Canvassing’s Failure to Adequately Improve Maps and Housing Unit
   Descriptions Caused Inefficiencies and Errors

As we traversed portions of 12 reservation assignment areas containing a total of 480 housing
units during our postoperation fieldwork, we found 35 units that were never enumerated.
Twenty-five of these were not even on the map. For the remaining 10, enumerators misidentified
the target housing unit and enumerated the wrong household, thereby creating duplicate
enumerations. And these 35 housing units were not enumerated during the subsequent coverage
follow-up operation. During update/enumerate, we observed that enumerators had difficulty
finding their assignment areas, reading the map spots (which represent individual housing units),
and associating address descriptions with the correct housing unit because address canvassing
did not adequately improve maps and housing unit descriptions. Moreover, maps of some
8
 Raw enumeration data undergoes internal checks and edits and is subject to change. Only raw enumeration data
was available at the time of our analysis.


                                                   9                                                    

U.S. Department of Commerce                                                       Final Report OSE-18027

Office of Inspector General                                                               September 2007


assignment areas were virtually illegible because of overlapping and undecipherable map spots.
With more than 7 percent of housing units potentially missed in these 12 assignment areas, it is
our opinion that a significant portion of any undercount experienced on American Indian
reservations may well be attributable to poor maps and address lists and the consequent inability
of enumerators to locate housing units.

Unclear, inaccurate maps disrupted enumerator progress and caused errors.

Poorly defined landmarks and boundaries. The bureau had to form assignment areas out of a
2.8 million acre reservation containing just over 3,000 housing units and few marked roads. In a
terrain of rolling prairies and dry river beds, and with some assignment areas as large as 200
square miles, field staff relied heavily on landmarks—airports, campgrounds, cemeteries,
hospitals, churches, and schools—to help determine where they were. But many of these features
were not adequately portrayed on the maps or were not included at all because address
canvassers were not required to update them. While the maps contain some landmark symbols,
bureau officials told us that they have not updated most landmarks in 20 or 30 years, and that
systematically updating landmarks would be too expensive. Officials noted that if landmarks
happen to have been hand-drawn on the maps, the bureau may use this information to revise
TIGER. Maps that do not correctly depict landmarks are not especially useful in remote areas
such as the Cheyenne River Reservation. The absence of current landmark information hampered
enumerators’ efforts to reliably ascertain their location with respect to their assignment area. The
investment in improving addresses is diminished if enumerators still cannot find the correct
housing units.

The reservation contains a dozen or so small communities with 10 to 50 housing units each.
However, their commonly known names are not on the maps because the communities are not
Census-designated places.9 As a result, enumerator maps often
consisted of a stretch of highway and a cluster of housing units or a   Figure 3. Illegible Map
partial cluster (if a community was divided into two assignment areas)
rather than familiar areas with recognizable boundaries. Enumerators
were unable to use their local knowledge to find their assignments.

The bureau’s canvassing procedure requires staff to systematically travel
all streets, roads, and paths in each block in a clockwise direction,
comparing housing units on the ground with those on the maps. But in
the frequent case in which one or more assignment area boundaries were
unmarked, nonexistent, or otherwise difficult to find and had
inaccurately portrayed landmarks, enumerators could not determine
where to start canvassing. They consequently resorted to traversing from
map spot to map spot, which caused them to miss some housing units. A
number of the missed or duplicated housing units we identified were
along such boundary lines.                                                                   Source: TIGER




9
 A Census-designated place is an area identified by the bureau for statistical reporting. Census-designated places are
communities that lack a separate municipal government but that otherwise resemble incorporated areas such as cities
or villages.


                                                    10                                                       

U.S. Department of Commerce                                                  Final Report OSE-18027

Office of Inspector General                                                          September 2007


 Map scale problems. Unlike in urban                          Figure 4. Varying Map Scales
areas, road boundaries on the reservation
created geographically large empty                                       Piece of larger block’s map (left)
spaces punctuated by clusters of housing,                                shows its map spots close to and
                                                                         overlapping small block.
which posed map scale challenges. If the
map scale is too small, clusters of
housing units are compressed, rendering      Scale: 2 inches to 1 mile

the map spots unreadable (see figure 3).                                        Map of small block (below)
Several assignment area maps we                             Red arrows (OIG annotation) show same location.
examined showed large blocks
containing clusters of unreadable map
spots. Some enumerators spent an
inordinate amount of time redrawing
such maps by hand in an attempt to
associate the correct housing units with
the appropriate map spots. They were
often unsuccessful and introduced errors.
Bureau officials told us the trade-off for
readable map scales is an unmanageably
large number of maps versus fewer maps
with legibility issues. But we question
the value of sacrificing legibility for
fewer maps—enumerators are bound to
make errors if they have maps they           Source: TIGER                Scale: 2¼ inches to 70 yards
cannot read.                                 The two map pieces above represent portions of 11” x
                                             17” map sheets and have been reduced. Their widely
We also found instances in which large       different map scales made it difficult to determine where
blocks obscured small interior blocks,       the small block was located. The enumerator, not
confusing enumerators because the map        realizing where the small block was represented on the
                                             larger block’s map (top left), added its housing units to
scales varied significantly from map to
                                             the larger block and, confused by the map sheet for the
map. In one large assignment area of         small block, deleted all its map spots. Subsequent rework
about 150 square miles, enumerators          tried to correct these and other errors but took so long
were unable to associate the small           that time ran out before the assignment area could
block’s map with a geographic location,      undergo a quality check.
particularly without landmarks to help
guide them, and thus residents were enumerated as part of the larger block (see figure 4).

Clearly, enumerators need better maps in remote update/enumerate sites to navigate large
assignment areas, especially if they do not have GPS aids. In addition to GPS, the handheld
computers used in address canvassing were equipped with a zooming capability, allowing
enumerators to view different levels of map detail as needed. Although the TIGER® database is
undergoing a redesign, bureau officials said the upgrade will not overcome map scale problems
but will make maps more readable.

For areas where paper maps are used, we urge the bureau to establish a systematic process for the
2010 decennial to identify areas where paper map scales should be revised. It should also assess



                                             11                                                          

U.S. Department of Commerce                                                          Final Report OSE-18027

Office of Inspector General                                                                  September 2007


the costs and benefits of having address canvassing add and update landmarks and other features,
such as commonly known community names, to the maps for update/enumerate areas. Spending
the time up front to produce useable maps could improve accuracy and timeliness, while
reducing the costs of update/enumerate as a whole.

Address information collected in address canvassing was inadequate.

Without reliable maps and GPS assistance, enumerators were left with the address canvassing
addresses and physical descriptions to guide them to the correct housing unit. Our review found
that the address lists remained in flux throughout update/enumerate as enumerators and quality
control staff made numerous modifications to street names, zip codes, and physical descriptions
(see table 1).

                                                                Address canvassers had been instructed to
           Table 1. Address Changes Made in                     enter addresses and describe each housing
                   Update/Enumerate
                                                                unit as well as mark its location on the map
     For 70 housing units in 12 assignment areas                using their handheld computer’s GPS
                                                                capability. With street names and house
                      Street Names                              numbers often not posted, canvassers had to
     Address canvassing:      29 added                          collect that information via interviews, but
     U/E production:          12 added or changed
                                                                they did so inconsistently.10 They also
     U/E quality control:     31 added or changed
                                                                focused more on collecting GPS readings and
     Total U/E changes:       43                      60%       less on keying in address information. They
                        Zip Codes                               thus often did not meticulously collect street
     Address canvassing:      8 added                           name and zip code information during the
     U/E production:          14 added
                                                                interviews and omitted readily recognizable
     U/E quality control:     47 added
                                                                and distinguishing structural characteristics
     Total U/E changes :    61                        90%       (“two stories, detached garage”). Marred by
                Physical Descriptions                           vague descriptions and missing information,
     Exterior colors, existing garage or deck, orientation      many addresses provided by address
     (e.g., facing north), distance from road, etc.
     Address canvassing:          66 added                      canvassing were of little use to
     U/E production:              11 changed                    enumerators—who did not have the benefit
     U/E quality control:         34 changed                    of GPS—in identifying correct housing units.
     Total U/E changes :          45                  60%
                                                     Although zip codes were one of the five data
                                                     fields that could be entered on the handheld
computer for the 2006 test’s address canvassing operation, almost 90 percent remained blank.
According to bureau officials, collecting zip codes is not important. However, with maps lacking
landmarks and community names and with few known street names, we observed that, in
practice, zip codes helped enumerators associate the address description with a specific
community. In some instances, zip codes became a surrogate for a community name.




10
  Valuable Learning Opportunities Were Missed in the 2006 Test of Address Canvassing - Evaluation: Census-OIG-17524-03­
06, p. 16.


                                                         12                                                     

U.S. Department of Commerce                                                        Final Report OSE-18027

Office of Inspector General                                                                September 2007


B. Without GPS Assistance, Completing Assignment Areas Was Extremely Difficult,
   Inefficient, and Error-Prone

Update/enumerate on American Indian reservations often calls for finding housing units multiple
times11 in areas where street names and house numbers may not be physically posted and
housing units difficult to locate. In addition, forming easily traversable blocks and assignment
areas using rural roads and boundaries can be extremely challenging. Yet update/enumerate in
the 2006 test did not employ handheld computers equipped with GPS navigation, but instead
used traditional paper maps and address lists. In contrast, the bureau tested GPS capability for
nonresponse follow-up enumerations in areas having the easier-to-find city-style addresses,
whose households receive their questionnaires by mail.

       Figure 5. Assignment Area with Multiple Errors                 Having observed both the address
                                                                      canvassing and update/enumerate
                                                                      operations on the Cheyenne River
                                                                      Reservation, we have firsthand
                                                                      knowledge of the benefits of GPS
                                                                      navigation in this difficult area.
                                                                      Address canvassers relied heavily on
                                                                      GPS to lead them around their
                                                                      assignment areas and to find the
                                                                      correct housing unit. In
                                                                      update/enumerate, enumerators did not
                                                                      have GPS and often became lost,
                                                                      resulting in wasted time and inaccurate
Four people attempted to sort out this area, resulting in             enumerations (see figure 5).
inefficiencies and numerous errors:
•	   4 housing units incorrectly deleted by first enumerator             In 2005 the bureau decided to use
•	 2 other housing units’ enumerations duplicated by
                                                                         handheld computers for address
     enumerators from different assignment areas                         canvassing and nonresponse follow-up
•	 4 deleted housing units reinstated and enumerated by                  as a principal means of improving
     quality control                                                     accuracy and efficiency. But after
•	 1 missing housing unit map-spotted and enumerated                     further analysis, the bureau concluded
     by quality control                                                  that it was too risky to manage
•	 2 map-spotted housing units never enumerated                          technology development for many
•	 3 missing housing units never map-spotted and thus                    concurrent applications within the
     never enumerated                                                    decennial schedule constraints and
Source: TIGER (some road names concealed and OIG annotations added), OIG decided not to use handhelds for data
observations                                                             collection operations that had relatively
small impacts on the total decennial budget—such as update/enumerate. Census did not evaluate
the alternative of using handheld computers in update/enumerate solely for navigation.

After observing enumerators routinely getting lost, we met with decennial managers and
discussed this problem, along with the benefits of using GPS technology to resolve it. They

11
  Enumerators attempt to make up to six visits to speak with a resident, quality control staff performs a quality
check on eight houses, and enumerators can potentially recanvass the entire assignment area two more times.


                                                     13                                                      

U.S. Department of Commerce                                            Final Report OSE-18027

Office of Inspector General                                                    September 2007


acknowledged that using handheld computers only for GPS navigation would help the operation
without unduly adding risk, but stated that funding would not allow it. In our view, however, an
investment in GPS could quickly pay for itself: our observations make it reasonable to conclude
that update/enumerate's high costs per unit on the Cheyenne River Reservation resulted in part
from time wasted as enumerators tried to locate their housing units with inadequate maps and
address lists. If they could find them faster and more directly, both mileage and salary costs per
unit would drop, and in the case of Cheyenne, the operation might have been completed on time
and with fewer errors. With reliable off-the-shelf GPS products costing little more than $100,
making them available to enumerators—in conjunction with adding latitude and longitude
coordinates to address lists—could significantly cut unit costs and allow the bureau to quickly
recoup the up-front outlay.

C. The Quality Check of Updated Maps and Address Lists Was Unable to Handle the
   Multitude of Errors It Encountered

As mentioned earlier, in each area enumerated, quality control staff         Table 2. Quality
canvassed eight consecutive housing units, checking that the                 Control (QC) Progress
enumerator correctly verified and updated the address lists and maps.           Initial Production
An assignment area failed quality control and was sent back for                       215 AAs
recanvassing if the address list had any one of the following critical            QC          No QC
                                                                                 205            10
errors: a missed housing unit, an incorrect street name, or a misplaced
                                                                             117       88
map spot. The success of the quality check relies on how accurately          Pass Fail
and quickly staff identifies errors and sends failed assignment areas           1st Recanvassing
into the recanvassing pipeline.                                                        88 AAs
                                                                                  QC          No QC
Ten of the 12 assignment areas we examined failed the quality                     27            61
check—each with critical errors ranging in number from three to eight,        14       13
                                                                             Pass Fail
when only one is needed for failure. A similar level of excess errors, if       2nd Recanvassing
generally occurring in the large percentage of the reservation                         13 AAs
assignment areas that were failing, would explain why the staff was so            QC          No QC
burdened that a week had to be added to the operation. Even with an                0            13
extra week, 84 assignment areas remained unfinished—they had either          Remaining
                                                                                                84
failed quality control or were not enumerated in time to undergo a           Workload
quality review (see table 2).

Bureau officials acknowledge problems with the quality check and intend to review the error
definitions, which they claim may have been too broad. While this matter warrants a review,
redefining what constitutes a critical error may not fix the quality control operation’s inability to
identify the kinds of problems we found in substantial numbers. Through analysis of duplicate
enumerations, we found 10 instances in which quality control did not indicate, and presumably
did not detect, that an enumerator had canvassed the wrong location and enumerated the wrong
housing unit while missing the correct one. In other cases, both enumerators and quality control
missed units and thus never added them to the map. For example, in our postoperation fieldwork,
we identified eight missing housing units in one assignment area that passed both address
canvassing and update/enumerate quality control (see figure 6, below). So while the quality
check and recanvassing did correct some missed enumerations and made meticulous address



                                             14                                              

U.S. Department of Commerce                                               Final Report OSE-18027

Office of Inspector General                                                       September 2007


corrections, they fell behind and, in the end, could not compensate for the systemic problems in
the process.

The bureau must ensure that enumerators have the tools they need to enumerate correctly the
first time. Unlike easy-to-navigate city-style blocks, assignment areas and blocks on the
                                                               reservation are hard to recognize. They
  Figure 6. Eight Housing Units Missed by Quality Control      are also often large and contain
                                  Assignment                   ambiguous boundaries—such as roads
The diagonal portion of the
                                 area boundary
assignment area boundary
                                     (in red)
                                                               that are hard to locate or unmarked
did not correlate with any                                     county lines. And they may contain
existing road or land                                          small blocks that are difficult to find
feature. As a result, two
multiunit buildings, each                                      because they are carved out of much
containing four apartments,                                    larger blocks. The bureau should
were not map-spotted                  8                        consider providing additional
during the earlier address        missed                       information about neighboring
canvassing operation or            units
                                                               assignment areas to help enumerators
found and enumerated
during update/enumerate.                                       find their location. This would be
Despite these errors, the                                      particularly helpful for areas containing
area passed quality control                                    invisible boundaries where we found
in both operations.             Source: OIG-altered satellite
                                imagery and annotations, TIGER
                                                               many of the missed and incorrectly
                                                               enumerated households.

Recommendations

The Director of the Census Bureau should ensure that 2010 decennial managers do the following
in connection with update/enumerate operations on American Indian reservations:
1.	 Analyze and document the most cost-effective way to give update/enumerate staff the tools
    they need to easily traverse assignment areas and identify housing units. The bureau should
    consider the following options:

    $   Improving update/enumerate maps by
           ≈ adding current landmark information and community names,
           ≈ providing clear assignment area boundary and location information,
           ≈ placing small settlements in a single assignment area and ensuring small blocks
              contained in geographically large blocks are both visible and legibly labeled, and
           ≈ developing a process to increase the scale for concentrated areas of housing units.
    $ Ensuring the address canvassing operation provides an appropriate level of information
      for the later operations by
         ≈ verifying that every address field has an entry, and
         ≈	 identifying and prioritizing the important distinguishing structural characteristics
             to be used to describe housing units and emphasizing their importance in the
             training for reservation canvassers.




                                               15                                                

U.S. Department of Commerce                                           Final Report OSE-18027
Office of Inspector General                                                   September 2007

   $    Using handheld computers or an inexpensive off-the-shelf device equipped with GPS in
        conjunction with the housing unit GPS coordinate information obtained during address
        canvassing.

2.	 Modify update/enumerate quality control procedures to better identify missed or duplicated
    housing units, for example, by conducting quality control checks across assignment areas.

Census Response and OIG Comments

The bureau attributed most of the problems enumerators encountered in the field to flaws in the
earlier address canvassing operation, and stated that since there was no specific test objective for
the update/enumerate methodology, the failure to complete all assignment areas does not mean
the test failed. Regarding the first point, we note that a major portion of our first finding
discusses address canvassing’s role in the poor performance of update/enumerate and encourage
the bureau to implement procedures for enhancing the quality of the maps and address lists
produced by that operation. As for the second point: the goal of update/enumerate is to improve
the count of reservation populations and without a sound operation, the bureau cannot expect to
improve the overall enumeration. If the tested operation missed numerous households and did
not complete quality control, and if the quality control operation failed to detect enumeration
errors, the tested procedures did not produce complete data or an accurate count. In addition, we
never suggested that the test failed. As long as the bureau learns from the test and applies what it
learned, its purpose has been met.

Census’s response also clarified which aspect of the quality control operation it intends to
review, and we revised the text accordingly. However, we reassert our concern that problems
with the quality control operation go well beyond error definitions. We believe quality control
needs to include a component to more effectively identify housing units that were missed by
incorporating analysis of housing units with duplicate enumerations, which as we observed, often
occur near confusing assignment area boundaries.

Census appeared to agree with the intent of our two recommendations, but disagreed with many
of the options we presented to accomplish them. With regard to recommendation 1, the bureau
agreed that efforts should continue to adequately provide update/enumerate staff with the tools
they need to perform the job. The bureau’s concerns about the options we asked it to consider
and our comments, where appropriate, are discussed below:

   •	 Adding landmarks: The bureau noted that updating landmarks on maps would
      significantly increase the cost and complexity of the address canvassing operation.
      However, given the large number of hand-drawn maps we observed on the paper TIGER
      maps, many with landmarks and other annotated detail, it appears that many enumerators
      considered such information to be fairly essential. Geography Division officials told us
      they sometimes add enumerator-drawn landmarks to TIGER. So we suggest that rather
      than attempting to update all landmarks on all update/enumerate maps, the bureau
      consider instructing listers and enumerators to include landmarks only where some or all
      street signs are missing and the location of a church or school, for example, could be




                                             16                                                

U.S. Department of Commerce                                          Final Report OSE-18027
Office of Inspector General                                                  September 2007

       essential for navigating the area. This would minimize the cost and complexity of making
       these enhancements.

   •	 Adding community names: Census staff is reviewing the possibility of using a database
      of locality names maintained by U.S. Geological Survey.

   •	 Clarifying assignment boundaries and location information: The bureau said it would
      continue its ongoing efforts to improve and refine geographic delineation and is studying
      a number of options for improving map design. We would appreciate receiving a
      description of this work and a timeline for completing it in the required action plan
      Census submits in response to our report.

   •	 Conducting address canvassing quality control without handheld computers: The bureau
      disagreed with this option, stating that it would not allow for checking and correcting
      map spot accuracy. Since this is less preferable than providing enumerators with a GPS
      capability, we eliminated this option from our final report. The bureau did agree to
      examine the costs, potential benefits, and risks associated with providing handheld
      computers or off-the-shelf GPS devices to enumerators. We would like a copy of the
      bureau’s findings as part of the action plan or, if not yet finished, the timeline for
      completing the analysis.

The bureau disagreed with how the second recommendation—to modify update/enumerate
quality control procedures to better identify missed or duplicated housing units—could be
accomplished. It did not agree with our suggestion to conduct quality control checks across
assignment areas, stating that such crosschecking is not feasible within the context of the current
quality control design. But many errors occur along assignment area boundaries because of
confusion over which assignment area claims borderline housing units. We therefore ask the
bureau to discuss in its action plan, methods it believes are feasible for checking assignment area
borders to minimize these problems.




                                            17                                                

U.S. Department of Commerce                                          Final Report OSE-18027
Office of Inspector General                                                  September 2007



II. Changes Designed to Improve Coverage Yielded Negligible Increase in the Count

Census’s choice of the Cheyenne River Reservation as one of the two 2006 census test sites was
a good one because the site posed many of the challenges that have long hindered efforts to get
an accurate count: a severe housing shortage; large, rural geography punctuated by small
communities; unnamed streets and unnumbered houses, to name a few. Tribal officials told
Census that multifamily households were likely undercounted in the 2000 decennial. And in
2002, a tribal representative told the Senate Subcommittee on Housing and Transportation that
the reservation needed to more than double habitable housing units to accommodate residents.
Yet the negligible difference between the occupied housing count in Census 2000 (2,604) and
the preliminary number from the 2006 test (2,632) suggests that a housing shortage continues to
exist and that numerous multifamily households were likely unaccounted for in the
update/enumerate test.

Our analysis of Census’s 2006 data revealed that the new query for finding “other individuals or
families” identified only 16 households for coverage follow-up, which, in turn, enumerated only
one person not already included in the more than 8,000 counted by update/enumerate.

A. Limited Test Scope Produced Disappointing Results

In the Census 2000 update/enumerate operation, enumerators asked a coverage question (figure
7) at the end of the interview to identify any household residents not yet counted. If the
respondent answered “yes,” enumerators entered the additional persons’ data immediately. The
coverage question in 2000 yielded less than .03 percent of the total count, leaving the bureau to
conclude it needed to conduct more research on how to structure the question and when to
enumerate additional people.

                           Figure 7. Coverage Question Asked By Enumerators




  Source: OIG facsimile of Census forms



                                              18                                              

U.S. Department of Commerce                                           Final Report OSE-18027
Office of Inspector General                                                   September 2007

Although previous census tests made some changes to the question, the principal change in the
2006 test was the addition of a new query to four others already established. A second change
was the decision to enumerate individuals identified by the question in the later coverage follow-
up, rather than on the spot. The bureau believed the on-the-spot approach did not work well,
though the documentation it provided did not support this contention. It planned to have
specially trained enumerators conduct coverage follow-up, which it expected would improve
outcomes.

Enumerators we observed did not ask the complete coverage question in the 2006 test.

In 15 interviews conducted by eight different enumerators for which we specifically noted how
the query was handled, enumerators asked all five queries only twice. Instead, they generally
recited only the introductory statement (“We do not want to miss any people who might have
been staying here on April 1, 2006. Were there any additional people staying here that you did
not include . . .”) and the first or second query before simply checking “no” for all options. Even
though, according to bureau evaluations, this parallels what happened in Census 2000, decennial
managers acknowledged that they did not consistently observe how enumerators were asking the
coverage question. Further, they did not monitor answers on returned questionnaires as the
operation was in progress, so they did not realize that enumerators were not asking the entire
coverage question and that few additional people were being identified.

Quality control already consists of a training component where supervisors observe the
enumerators’ first few interviews to determine what additional on-the-job training is needed to
correct any deficiencies. This process could be enhanced to emphasize the importance of asking
the coverage question in its entirety. In addition, the coverage question could be included in the
quality control operation as part of the reinterview process. If discrepancies between enumerator
and quality control results are found, the enumerator can be retrained as necessary. We advocate
at least strengthening the existing quality control components to improve administration of the
coverage question.

Census lacks a clear rationale for reenumerating entire households at a later time.

Households whose response to the coverage question identified them as having more people to
enumerate were reenumerated on a separate occasion, well after Census Day. However, the
bureau did not provide a clear rationale for this approach. Residents questioned many weeks, or
even months, later about who lived in their household on April 1 may have inaccurate
recollections. In fact, the bureau director testified in 2000 that the farther away from Census Day,
the more the quality of respondents’ answers deteriorates. Some update/enumerate staff told us
they were frustrated by being instructed not to enumerate additional persons identified by the
coverage question and were concerned that the later follow-up would fail to find additional
household members. Our examination of the results of coverage follow-up suggested their
concern had merit: though 16 housing units answered “yes” to the test query, only 1 person was
added during the follow-up operation. And only 15 more people were added from the 86 total
housing units answering “yes” to the other four coverage question queries—an extremely
incongruous result.




                                            19                                                 

U.S. Department of Commerce                                          Final Report OSE-18027
Office of Inspector General                                                  September 2007

B. Absence of Benchmarks Undermined Census’s Ability to Assess 2006 Test Results and
   Improve 2010 Coverage

Beyond its failure to detect poor testing of the coverage question, Census had no benchmarks or
objectives against which to assess its success at identifying housing units with missed residents.
Benchmarks are critical for monitoring progress and indicating potential problems.

The bureau could have established an expected number of overcrowded housing units—that is,
households likely to require questionnaire continuation forms because they contain more than
five residents (the questionnaire has room for information about a maximum of five people). Our
review of the completed questionnaires found that less than 12 percent of the occupied housing
units used continuation forms. This low number contradicts what we heard from the tribal
housing official—an individual with professional and cultural knowledge about the level of
overcrowding—who expected 20 to 25 percent of the reservation’s households to have more than
five members. On the other hand, it is consistent with the weak results produced by the coverage
question and coverage follow-up approach, which clearly indicate that the methods tested were
far from sufficient to obtain an accurate count.

The bureau could also have explored the feasibility of identifying areas known to be
overcrowded—specific communities, apartment buildings, public housing, for example—and
monitored the extent to which large households were being identified via the coverage question
response or the use of continuation forms. Among other possible benefits, this comparison would
help bureau officials determine whether enumerators were following procedures. If outcomes did
not meet expectations, additional training, enumerator observation, or other options to correct
deficiencies could have been implemented. Poor implementation of the new approach and the
bureau’s failure to recognize the problems eliminated opportunities to correct the flaws in the
update/enumerate process and determine how best to improve multifamily household coverage
on American Indian reservations in 2010.

Recommendations

The Director of the Census Bureau should ensure that 2010 decennial managers do the following
in connection with update/enumerate operations on American Indian reservations:

1.	 Reconsider the decision to defer enumeration of additional individuals and families to
    coverage follow-up.

2.	 Enhance enumerator training, supervision, and quality control to ensure that the coverage
    question is asked as intended.

3.	 Following Census 2010, ensure that all future site tests contain appropriate benchmarks,
    document how test results will be measured against them, and determine what contingencies
    will be used to offset problems that emerge as new procedures are implemented.




                                            20                                                

U.S. Department of Commerce                                             Final Report OSE-18027
Office of Inspector General                                                     September 2007

Census Response and OIG Comments

The bureau contended that our report incorrectly stated it was unaware that enumerators were not
reading the coverage questions as worded, claiming that Census Bureau observers had also made
comments about this. What the report actually stated is that in nearly all the interviews we
observed, enumerators did not ask the test question at all. When we informed bureau officials of
this on May 24, 2006, they exhibited surprise that the test query was not being asked and that it
was eliciting few “yes” responses.

Census defended its decision to defer coverage follow-up, stating that past experiences and
testing indicated that the best way to resolve potential within-household coverage errors was to
conduct a separate follow-up interview using specially trained staff. But we have never seen
documentation supporting this decision. We asked for but never received any evaluation
materials regarding the change. Census eventually sent a brief e-mail in response to our requests,
in which it stated the 2006 change was based on the results of an evaluation that measured
impact of the Census 2000 coverage question. But that evaluation neither discusses nor
recommends deferring follow-up to a later operation. Rather, it recommends adding the names of
newly identified people immediately after the question, then enumerating them on the spot,
which reaffirms how it was done in 2000. Neither the e-mail nor the evaluation addresses the
possible risks associated with delaying the subsequent data collection.

With regard to our recommendations, Census stated that it has yet to complete its own evaluation
of the coverage follow-up operation but will use its analysis to reconsider deferring additional
enumerations until that later operation. We ask that the bureau’s action plan (1) provide us with
the results of this evaluation once completed or with a timeline for completing it, and (2) address
the risks associated with the deferral and the ramifications of the negligible increase in the count
that resulted from the coverage question.

The bureau stated that it generally agreed with the recommendation to enhance enumerator
training and supervision to improve use of the coverage question. However, it disagreed with our
proposed solution of using quality control to check how the enumerators administer it; in
particular, it stated that there is no practical way to use the quality control operation to ensure the
coverage question is asked as worded. We have added a paragraph to the report to show how we
believe existing components of the quality control design could possibly effect such
improvement. We ask that Census consider these approaches or offer alternative solutions in its
action plan.

Finally, Census declined to agree with our recommendation regarding the development of
benchmarks, but stated it was willing to consider any specific benchmarks we might suggest for
specific operations. We believe the bureau needs to develop these measures as it is determining
its test objectives and choosing corresponding sites, because these decisions should involve the
establishment of criteria for measuring the impact of tested improvements. Appropriate
benchmarks are an extension of such criteria and a check on their validity. So again, we ask
Census to address in its action plan, steps for incorporating benchmarks into its testing approach
and agenda for the 2020 decennial that are relevant to specific test objectives and sites.




                                              21                                                 

U.S. Department of Commerce                                           Final Report OSE-18027
Office of Inspector General                                                   September 2007

III. Leadership Devoted to Transforming Census’s Approach Is Needed to Improve the
     Count on American Indian Reservations

While acknowledging that enumerating American Indians and Alaska Natives has historically
been “less than successful,” and setting improved enumeration methods for these populations as
a goal for the 2006 test, the bureau did not substantially alter its Census 2000 process for
enumerating reservations. The only operational improvement tested specific to the reservation
was the new coverage query (“other individuals or families staying here”)—a remarkably modest
modification given the importance of the challenge. Census’s response to our question regarding
what other changes were proposed but not implemented was that “all changes or adaptations
[proposed] were implemented.” Moreover, there was no Census headquarters official whose
principal responsibility was to plan and implement the 2006 update/enumerate test for American
Indian reservations. Although many employees work on American Indian issues, no one is
charged with the singular task of improving enumeration on reservations for 2010. We are
therefore left to question the priority and attention the bureau is giving to developing methods for
reducing the undercount on American Indian reservations.

In our view, adjustments to the coverage question and follow-up approach by themselves will not
adequately improve the count of multifamily households. Likewise, modifications to the
questionnaire will not solve the map and address problems that underlie a sizable number of
missing enumerations and surely contribute to the undercount on American Indian reservations.
The bureau missed the opportunity in the 2006 test to evaluate other concepts and see which
options offer the greatest potential for increasing the count. Major transformation is needed to
produce better data, faster, and at a lower cost, not only for multifamily households but for the
reservation as a whole.

Given the test’s scant ambitions, the bureau forfeited the opportunity to obtain valuable
information in a number of areas by not testing the following:

•	 Alternative coverage procedures, such as asking how many families live in the housing unit
   at the beginning of the interview rather than at the end.

•	 The viability of using local administrative records against which to compare enumeration
   results.

•	 Use of handheld computers for navigation only in update/enumerate.

•	 Examination of results during the operation to identify duplicates and alert quality control
   about possible missing enumerations.

•	 Usability of the TIGER maps and effectiveness of map changes made since Census 2000.

•	 Other operational changes, such as pairing up enumerators in some of the more difficult
   assignment areas.




                                            22                                                 

U.S. Department of Commerce                                           Final Report OSE-18027
Office of Inspector General                                                   September 2007

While some of these approaches may initially be more costly, the end result could be more
accurate, reliable data; increased acceptance rates of enumerations by quality control; and less
overall time to complete the operation. For example, mileage costs alone totaled about $79,000
($26 per address), according to the bureau. Enumerators, while driving long distances, have to
work out routes, follow assignment area boundaries, and match address descriptions to housing
units. It became evident during our fieldwork that designating one person to drive and another to
read maps and address lists is a far more reliable, faster, and safer method of traversing
assignment areas and locating housing units. We found missed housing units that may have been
overlooked because they were set back some distance from the road and thus unnoticed by an
enumerator driving and working alone.

The bureau also needs to better monitor the progress of its tests to determine whether the
operations are being implemented to meet the objectives and to better inform its evaluations and
conclusions. If the new coverage query is rarely asked, for example, and the bureau is not aware
of this, the validity of its postoperation assessment will be questionable at best. More focused
headquarters observations of the operation and use of benchmarks to monitor test progress would
be of value as testing proceeds. And as our findings amply demonstrate, numerous aspects of the
basic update/enumerate operation require substantial enhancement, suggesting that seemingly
routine processes and activities of any census test bear close scrutiny and evaluation for purposes
of continual improvement.

Finally, the bureau must designate someone who can help remedy the situation for 2010 by
making effective changes to the problematic methods and procedures discussed in this report, as
well as implementing other improvements as deemed necessary.

Recommendations

The Director of the Census Bureau should assign a senior headquarters official specific
responsibility for the following:
1.	 Leading the effort to reexamine the bureau’s complete approach to enumerating multifamily
    households on American Indian reservations, and ensuring that relevant procedures, training,
    supervision, and quality controls are revised accordingly.
2.	 Implementing and monitoring the changes necessary to make the 2010 enumeration of
    American Indians on reservations a process that significantly decreases the undercount.

Census Response and OIG Comments

Census took exception to this finding and the corresponding recommendations, insisting that we
did not accurately characterize the level of effort made to improve coverage on American Indian
reservations or the virtual elimination of the undercount in the 2000 decennial. The bureau lists a
number of partnership and liaison activities as further proof of the efforts it made. But our report
focuses on the 2006 test of reservation enumeration: we found that no single individual was
responsible for leading this aspect of the test, and this void was apparent in the numerous
meetings we had with headquarters officials during the course of our review. And while
partnership and liaison activities may increase the number of responses to the Census


                                             23                                                

U.S. Department of Commerce                                                 Final Report OSE-18027
Office of Inspector General                                                         September 2007

questionnaire, improved tribal relations will not fix flawed enumeration field practices and
procedures.

In its response, the bureau states that our report inaccurately implies that no progress has been
made for decades and argues that Census 2000 showed significant progress over the 1990 census
in counting American Indians residing on reservations: its 1990 estimated coverage error showed
a net undercount of 12.22 percent (with a standard error of 5.29 percent), while Census 2000
showed a net overcount of 0.88 percent (with a standard error of 1.53 percent). The bureau
attributes the improvement to its numerous interactions with tribal representatives, the efforts of
its American Indian and Alaska Native Advisory Committee, and paid advertising.

Nevertheless, the fact remains that this population has been undercounted in numerous if not all
prior censuses and the problem is therefore a historical one. Further, we take exception to the
bureau’s assertion that the undercount12 was eliminated in the 2000 census for the following
reasons:

The bureau had to discard its initial estimate of the Census 2000 coverage error because, while
the decennial count exceeded the population estimate by nearly 7 million, the initial error
estimate found that the census had an undercount. For its second error estimate, the bureau
factored in an unprecedented 6 to 7 million duplicate enumerations that had occurred in the
census. This estimate newly yielded an overcount for the nation as a whole. Moreover, the
overcount was found not only for the previously-undercounted American Indian reservation
population, but also for several other historically hard-to-count groups, such as Hispanics and
Asians. The estimation methods and reliability of their results have been questioned by the
National Academy of Sciences, GAO, and the Decennial Census Advisory Committee. The
purported overcount for American Indians is further suspect in light of testimony from Navajo
and Hopi tribal leaders, who in 2004 told the House Financial Services Subcommittee on
Housing and Community Opportunity that Census 2000 undercounted their reservations.
Cheyenne River Sioux tribal leaders expressed the same belief to us about their reservation.
Certainly, the missed housing units and enumerations we observed during the test confirm that
an undercount in 2010 is a very real possibility and should therefore be a very real concern. The
National Academy of Sciences has noted that a sizable differential undercount among all hard­
to-count groups could result in 2010 if the census design is very effective in deleting duplicates
but not effective in reducing omissions.13

But even putting the Census 2000 results aside, the bureau’s own plans for Census 2010
emphasize the need for identifying and testing creative approaches to successfully enumerating
the American Indian population. And the results of the 2006 test—which were several hundred
people short of the bureau’s own 2006 population estimates for the two counties in the site—
indicate that Census’s efforts to realize its ultimate goal of successful enumeration may have lost
ground as well.



12
  “Net overcount” is shortened to “overcount”; similarly, “undercount” implies “net undercount”. 

13
  National Academy of Sciences, Research and Plans for Coverage Measurement in the 2010 Census: Interim

Assessment, 2007. Page 1-13. 



                                                24                                                   

U.S. Department of Commerce                                          Final Report OSE-18027

Office of Inspector General                                                  September 2007


                        SUMMARY OF RECOMMENDATIONS 


The Director of the Census Bureau should ensure that 2010 decennial managers do the
following:
1.	 Analyze and document the most cost-effective way to give update/enumerate staff the tools
    they need to easily traverse assignment areas and identify housing units. The bureau should
    consider the following options (see pages 15-16):

   •	 Improving update/enumerate maps by
         ≈ adding current landmark information and community names,
         ≈ providing clear assignment area boundary and location information,
         ≈ placing small settlements in a single assignment area and ensuring small blocks
            contained in geographically large blocks are both visible and legibly labeled, and
         ≈ developing a process to increase the scale for concentrated areas of housing units.

   •	 Ensuring the address canvassing operation provides an appropriate level of information
      for the later operations by
          ≈ verifying that every address field has an entry, and
          ≈	 identifying and prioritizing the important distinguishing structural characteristics
              to be used to describe housing units and emphasizing their importance in the
              training for reservation canvassers.

   •	 Using handheld computers or an inexpensive, off-the-shelf device equipped with GPS in
      conjunction with the housing unit GPS coordinate information obtained during address
      canvassing.

2.	 Modify update/enumerate quality control procedures to better identify missed or duplicated
    housing units, for example, by conducting quality control checks across assignment areas
    (see page 16).

3.	 Reconsider the decision to defer enumeration of additional individuals and families to
    coverage follow-up (see page 20).

4.	 Enhance enumerator training, supervision, and quality control to ensure that the coverage
    question is asked as intended (see page 20).

5.	 Following Census 2010, ensure that all future site tests contain appropriate benchmarks,
    document how test results will be measured against them, and determine what contingencies
    will be used to offset problems that emerge as new procedures are implemented (see page
    20).




                                           25                                                

U.S. Department of Commerce                                         Final Report OSE-18027
Office of Inspector General                                                 September 2007

The Director of the Census Bureau should assign a senior headquarters official specific
responsibility for the following:

1.	 Leading the effort to reexamine the bureau’s complete approach to enumerating multifamily
    households on American Indian reservations, and ensuring that relevant procedures, training,
    supervision, and quality controls are revised accordingly (see page 23).

2.	 Implementing and monitoring the changes necessary to make the 2010 enumeration of
    American Indians on reservations a process that significantly decreases the undercount (see
    page 23).




                                           26                                                

U.S. Department of Commerce                                                       Final Report OSE-18027

Office of Inspector General                                                               September 2007


                        APPENDIX: 2006 CENSUS TEST OBJECTIVES14

                                   1. American Indian and Alaska Native
Develop, test, and evaluate improved enumeration methods on an American Indian Reservation.
                                           2. Coverage Improvement
1. Develop new methods for improving coverage, including procedures to address overall coverage of the
population and housing, and procedures to address duplication issues. Specifically, this includes (a) testing
improvements to the residence rules and instructions, particularly focusing on improvements to how residence
rules are handled in field enumeration, and (b) developing and testing operations to improve coverage, including
all aspects of the Coverage Follow-up operation and coverage questions.
2. Develop and test an automated system of recycling cases during an operation to ensure quality. This includes
confirming deletes during Address Canvassing, instead of creating a separate field operation to confirm their
status and verifying vacants and deletes during Nonresponse Follow-up.
3. To develop and test chosen imputation methodologies for characteristic imputation.
                                   3. Census Coverage Measurement (CCM)
1. Design and test data collection methods for the Person Interview and Person Follow-up interview to allow us
to determine whether census enumerations and omissions were counted correctly at various levels of geography
with sufficient accuracy to support estimation of component and net coverage errors.
2. Determine if conducting the CCM Person Interview as soon as Census Nonresponse Follow-up (NRFU) is
complete (and while Coverage Follow-up Operations are being conducted) in a sample area adversely affects
the census data.
                                                 4. Field Activities
1. Assess the feasibility and effectiveness of using HHCs for both new functionality and improved functionality
from that used during the 2004 Census Test (including Global Positioning System (GPS) technology) during the
combination Nonresponse Follow-up NRFU)/Vacant/Delete (V/D) operation.
2. Determine the operational feasibility, impact, and effectiveness of implementing a fingerprinting security
check of applicants for field positions.
                                                   5. Language
Develop, test, and evaluate a fully translated Spanish language instrument on the HHC used during the NRFU
operation (Questionnaire Fulfillment and Response options).
                                          6. Self Response Options
Implement the optimal mailing strategy timing and assess the impact it has on response and other data collection
operations (replacement questionnaire delivery).
                                     7. Special Places/Group Quarters (GQs)
1. Obtain administrative lists for selected types of group quarters; process and update the MAF with these
addresses before Address Canvassing (Use of Administrative Lists for Frame Development).
2. Continue to implement an integrated approach for updating the list of living quarters during Address
Canvassing and the Group Quarters Validation operations (Other Living Quarters Validation).
3. Implement revised GQ type definitions and classifications in all of the frame building and enumeration
operations (Definitions and Classification).
Grayed-out objectives not applicable to the Cheyenne test site




14
     Revised 2006 Census Test Project Management Plan, July 10, 2006.


                                                    27
                                            .".,
                                            ~~ ~               ~~
                                             ~f.tlT OF Co     UNITED STATES
                                                              UNITED        DEPARTMENT OF
                                                                     STATES DEPARTMENT OF COMMERCE
                                                              Economics and Statistics
                                                                            Statistics Administration
AGENCY RESPONSE                                                 S. Census
                                                              U.S. Census Bureau
                                                              Washington,, DC
                                                              Washington   DC 20233- 0001
                                                                              20233-0001
                                              ~1".i1rESOf ~   OFFICE OF THE DIRECTOR




 MAY 2 8 l607
 MAY 2 8

         laD.



MEMORANDUM FOR                        Judith  J. Gordon
                                       udi th J.

                                      Assistant Inspector General for Systems Evaluation

Through:
Thro ugh:                                        Glassman U.J-
                                      Cynthia A. Glassman             t'
                                      Under Secretary for Economic Affairs

                                                                    ~ 1htvfA~J.'o¥l
From:                                 Charles Louis Kincannon
                                      Director                     l(
Subject:
Subj ect:                             Comments
                                      Comments. onon the Office of           General'ss draft report
                                                                of Inspector General'
                                      entitled
                                      entitled 2010 Census:
                                                    Census.. Key Challenges to Enumerating
                                                                                Enumerating American
                                      Indian Reservations with  Historic Undercount
                                                           with Historic Undercount Unresolved by 2006
                                      Census       (OSE- 18027)
                                      Census Test (08£-18027)


                                            of April 10
The attached is in response to your request of            2007 , for comments on the above-
                                                     10,, 2007,                      above­
referenced report.
referenced report.  We appreciate the opportunity to review the report prior to publication.

Attachment

cc: US/EA
cc:




USCENSUSBUREAU
  e E S U S B REA
Helping You Make Informed Decisions
            Make Informed Decisions                                                         www.census.gov
                                                                                            WWW. c ens us. go V
AGENCY RESPONSE

                                           OSE- 18027/April2007
                        Draft Report No. - OSE-18027/ApriI2007
           Census.. Key Challenges to Enumerating American
     20100 Census:
     201                                          American Indian
                                                           Indian Reservations with
                   Historic
                   Historic Undercount Unresolved by 2006 Census Test
                                S. Census Bureau Comments
                              U.S.


 The Census Bureau appreciates this opportunity to comment on the findings and
 recommendations from the Office of                        (OIG). Overall we believe the
                                      of Inspector General (OIG).
 2006 Census
 2006 Census Test
              Test was
 methods , operations,
 methods,  operations , and uses
                            u   ses of technology.
                          successful-it provided us with an opportunity to study new
                    was successful-it
                                 of technology.

 We have two areas of of general concern with the conclusions and recommendations in this
 report , and also have a number
 report,                  number of
                                  of specific comments. We also have provided our
                                     specific comments.
 responses to the GIG'
                   OIG'ss six recommendations.

 Census Bureau General Concerns

  1. The Census
  1. The          Bureau is concerned with the fact that this report (including its title)
         Census Bureau
     consistently mischaracterizes the objectives of                    Test,, and
                                                  of our 2006 Census Test
     consistently overlooks the significant improvements made last decade in reducing the
     undercount of
                 of American Indians living on reservations.

     •   The Census Bureau had many objectives for conducting the 2006 Census Test,        Test
         and almost all of  of them related to studying new methods      operations , and uses
                                                             methods,, operations,        uses of
                                                                                                of
         technology for enumerating sparsely populated areas of      of the country  in general
                                                                                        general,
         not just those    living on reservations.
                   those living                         GIG' s characterization of
                                     reservations. The OIG's                      of the purpose
         of                    accurate. The Census Bureau does not know how the OIG
                 test is not accurate.
         of this test
         decided on its list of of key challenges (see page i), but these were not our goals for
         this test,, nor (as stated) were these the criteria we used to select this test site.
         this test



     •   For the 2006 Census Test                                 site,, we did develop three
                               Test,, once we had selected this site
         specific goals with respect to finding ways to improve enumeration of     of the
                                           reservations,, and the OIG report describes all
         American Indian population on reservations
               of these goals on page
         three of                page 1 of
                                         of its
                                            its report. However,, based on the contents of
                                                report. However                              of the
         report
         report,, the OIG reviewed only our efforts related to the first ofof these goals
                                                                                    goals,, yet
         then criticizes the Census Bureau for not making more efforts.

     •   Further, while these three goals may have appeared "remarkably
         Further,                                                      "remarkably modest" to the
         OIG , they were designed to build on many efforts
         OIG,                                              efforts,, and significant progress made
         last decade.       1990,, the estimated coverage error for American Indians
              decade. In 1990                                                          Indian~ residing
                                                                                               residing
         on reservations was a net  net undercount
                                        undercount ofof 12. 22 percent (s.
                                                        12.22             (s.e.
                                                                             e. 5.29  percent). Yet
                                                                                5. 29 percent).       for
                                                                                                 Yet for
                   2000,, the final
         Census 2000          final estimated coverage for American Indians on reservations
         was a small net overcount of    of 0. 88 percent (s.
                                            0.88          (s.e.  1.53
                                                              e. 1. 53 percent).
                                                                       percent). This
                                                                                    This improvement
         resulted from a number of   of improvements made last decade, including the use of          of a
         tribal liaison program
                        program,, the use of                          specialists,, a number of
                                             of tribal partnership specialists                 of tribal
         consultations , paid advertising, and efforts during the decade with our American
         consultations,
AGENCY RESPONSE                                                                                 2


       Indian and Alaska Native (AIAN)                  Committee,, tribal governments
                                    (AlAN) Advisory Committee                governments,, and
                                                                Census,, so are hopeful we can
       others. We plan to repeat such efforts for the 2010 Census
       others.
       maintain and build
                      build on
                            on the
                                the improvements
                                     improvements wewe made         decade. We agree with the
                                                               last decade.
                                                        made last
                                                              written , their report implies that
                                               areas,, but as written,
       OIG that it is difficult to count these areas
                                         decades,, and that is not accurate.
       no progress has been made for decades

                                                                    of effort to "a
       Further,, the OIG report then goes on to attribute this lack of
   •. Further                                                                    "
                                            Bureau " and makes a formal recommendation
       leadership vacuum at the Census Bureau,"
       that the Census Bureau Director should appoint a senior official with primary, if
             sole , responsibility for ensuring improved enumeration of
       note sole,
       note                                                            of American Indian
       reservations in
       reservations    in 2010.
                          2010. We do not agree with this conclusion nor this
       recommendation. The OIG has not accurately characterized the level of
       recommendation.                                                            of effort the
       Census Bureau has made since 1990 to improve coverage on American Indian
       reservations,, nor the success
       reservations             success we
                                        we experienced
                                           experienced in
                                                        in 2000.
                                                           2000. Senior Census Bureau
       officials helped develop and lead those efforts last decade and are committed to
                                                                 2010. In
       repeating and building on those successful efforts for 2010.    In addition
                                                                          addition,, we
       consult with our AlAN
                           AIAN Advisory Committee on all proposed methods and plans
       for conducting the 2010
                             20 I0 Census on American Indian reservations.

   •   The OIG report also implies that the Census Bureau was testing ways to improve
       our Update/Enumerate (U/E) methodology, but we had no such objectives for the
       2006 Census
       2006          Test. We used the U/E methodology in 2006 because that is the
             Census Test.
       methodology we plan to use for reservations (and other sparsely populated areas)
          2010. We used this method for such areas in Census 2000 as well
       in 2010.                                                        well,, and we
       believe it was an improvement compared to the List/Enumerate (L/E)
                                                                       (LIE)
       methodology                    censuses. With the L/E
       methodology used for previous censuses.            LIE methodology, address list
                                                       time,, with only one pass over the
       development and enumeration occur at the same time
                       U/E methodology, we have two opportunities to ensure good
       area. With the UIE
       area.
       coverage-first during Address Canvassing and second during the enumeration
       coverage-first
       phase.

   •   The Census Bureau agrees with the OIG reportthat we encountered some
                                                            Test,, but most of
       problems during the U/E operation in the 2006 Census Test            of these
       resulted from earlier problems with
                                       with the
                                             the Address Canvassing     operation. Based on
                                                          Canvassing operation.
       the results and our evaluations of
                                       of the Address Canvassing operation (our first ever
       attempt to conduct this operation using automated devices), we are working now
       to correct those problems before we conduct the nationwide Address Canvassing
       operation in
       operation  in 2009.
                     2009. However
                            However,, because we did not have any specific test objectives
                           methodology, the fact that we were unable to complete the
                      U/Emethodology,
       regarding the U/E
       U/E operation for all assignment
                             assignment areas
                                          areas does
                                                does not
                                                     not mean
                                                         meanthis
                                                                thiswas
                                                                     wasaa failed
                                                                            failedtest.
                                                                                   test. The
       Census Bureau will only consider this a failed test if we do not learn from our
       experiences
       experiences there.                         OIG'ss observations and comments about
                    there. We do appreciate the OIG'
       Address Canvassing and U/E                     test,, and will take them into
                                 UIE problems in the test
       consideration as we finalize our Address Canvassing and UIE D/E methods for 2010.
                       ...




AGENCY RESPONSE                                                                                          3


  2. The Census
  2. The    Census Bureau also  also is
                                     is concerned that the report presents
                                                                  presents aa number
                                                                              number of conclusions
     based     onappears
     based on what whattoappears
                          be a
                               sam~ of only
                                   to be a non-representative sample     only 1212 (out of215)
                                                                                   (out of 215)
     assignment areas in this test area.

      •                       that OIG
          The report states that   OIG staff
                                        staff observed
                                              observed aa total
                                                            total of
                                                                   of 17  interviews , which would
                                                                      17 interviews,
                         than half
          represent less than   half of
                                     of 1 percent
                                          percent of the approximately 33,000  000 households in the
          test area.
          test area. There
                     There isis nothing
                                nothing to
                                         to indicate how the DIG                       cases , or how
                                                                 0 I G selected these cases,
          they selected the interviews they observed. If    If the cases were selected in a non­non-
                   fashion,, as
          random fashion     as seems to be the case,
                                                  case , it would not be appropriate to generalize
          from this small sample to the entire test the cases were selected at random or in
          any other statistically representative fashion.

     •    Of even greater concern from a methodological perspective
                                                                perspective,, the OIG states that
          much of
                of their detailed work,
                                  work, and most of  of their stated findings and
          recommendations, stem from
          recommendations,          from their analysis
                                                 analysis of only 1212 assignment
                                                                       assignment areas they
          selected for close
          selected for close scrutiny.                               selected these
                             scrutiny. The OIG states that they selected       these particular
                                                                                     particular 12
          assignment areas because they were areas that "exhibited
                                                              " exhibited the types of problems
                                     field."" If
          we were observing in the field.     If this statement fully describes their sampling
          methodology, then the OIG'
                                  OIG'ss findings are at best not generalizable and  and,, at worst,
                                                                                              worst
          biased.

          That isis,, if
                      if the OIG selected a small number of areas to study based on whether
          those areas appeared to have problems,
                                               problems , it should come as little surprise that they
          observed some some problems
                               problems in          areas. What is surprising is that the OIG then
                                           in those areas.
          generalizes what they found in these non-representative areas to the entire test
          site , and then draws conclusions about how well the Census Bureau will be able
          site,
          to conduct these operations for the 2010 Census on American Indian reservations
          in general.
             general. Further
                           Further,, the general reader of
                                                         of this report is not advised of
                                                                                       of the possible
          limitations
          limitations to  to the OIG' s findings
                             the OIG's   findings,, given the methodology they used to arrive at
          their conclusions.

     •    In addition
             addition,, both the cover letter and executive summary of         the OIG report make
                                                                            ofthe
          very strong, negative
                         negative,, and sweeping statements about the quality of      of Census
          Bureau maps and and address
                                address canvassing.
                                          canvassing. Statements like ""virtually
                                                                           virtually illegible
                                                                                      illegible,
          inaccurate maps
                       maps,, and incorrect addresses
                                               addresses"" would
                                                           would,, on face value
                                                                             value,, indicate that none
          of
          of the maps were any good good,, and that all of the addresses
                                                               addresses were
                                                                            wereincorrect.
                                                                                  incorrect. Again
                                                                                              Again,
          none of
                of these statements are accompanied by any caveats stating that the
          conclusions are based on a sample of     of observations
                                                      observations,, much less that they are based
          on what appears to  to be
                                  be aa biased
                                        biased sample.
                                               sample. Further
                                                         Further,, in the detailed sections ofof the
          report
          report,, the specific problems the OIG describe do not sound nearly as pervasive or
          debilitating.
          debilitating. For
                          For example
                               example,, on pages
                                              pages 8-
                                                    8-99 the report includes the following
          statement: ""...we
                          we observed that enumerators had difficulty finding their
          assignment areas
                        areas,, reading the map spots (which represent individual housing
          units), and
                   and associating
                       associating address descriptions with the correct housing unit because
          address canvassing did not adequately improve maps and housing unit
          descriptions.
          descriptions. Moreover
                          Moreover,, maps of   of some assignment areas were virtually
AGENCY RESPONSE                                                                                              4


            illegible.. .. " The
            illegible...."   The phrases
                                 phrases "had difficulty"" and "maps
                                         "had difficulty        "maps of of some assignment areas
                                                                                              areas"
            hardly seem sufficient to warrant the much stronger         broader , and more critical
                                                            stronger,, broader,
            statements found in the cover letter.

       •    In several places the report makes statements or recommendations based on the
            OIG'ss assessment of our coverage
            GIG'                         coverage improvement
                                                  improvement objectives
                                                                 objectives for
                                                                             forthis
                                                                                 thistest.
                                                                                      test. We have
            not completed our own evaluation of   of those objectives
                                                           objectives,, so we cannot fully respond
                   OIG at
            to the OIG  at this
                            this time.
                                  time. Once we have completed our evaluations
                                                                       evaluations,, we will take
                OIG'ss recommendations into account as we make final decisions on these
            the OIG'
            matters for the 2010 Census.

       •    Finally, we note that the Census Bureau does not have access to the satellite
            imagery, independent listings            materials , or methodology used by OIG
                                    listings,, other materials,                           OIG staff
            to draw their conclusions about coverage errors made by Census Census Bureau staff
            during this
            during  this test.
                         test. Therefore
                               Therefore,, we cannot verify the accuracy of of the OIG's
                                                                                   OIG' s findings.
                example , although the OIG identified several housing units (HUs) as having
            For example,
            been missed by our Address Canvassing operation last fall   fall,, we have not reviewed
            their documents to determine whether those units existed (or were physically at
            those locations) at the time ofof an operation that took place many months prior to
                OIG' s work.
            the OIG's  w ork.

  ~ecific
  Specific Census Bureau Comments

  The Census Bureau also have some additional specific comments:

  Page ii

   The report criticizes the Census Bureau for increased costs to conduct the VIE            U/E operation
   by citing a cost of$82
                      of $82 per HU in this test test,, versus
                                                        versus $30
                                                                 $30 per
                                                                      per HV
                                                                           HU inin Census
                                                                                   Census2000.
                                                                                           2000. This
   comparison is  is not
                     not valid for
                                 for several
                                     several reasons.     First , these figures are not in comparable
                                              reasons. First,
   dollars , so they do
   dollars,           do not
                          not take
                               take inflation
                                     inflation into
                                                into account.      Second,, in order to
                                                      account. Second                 to conduct this
                                                                                                  this test
                                                                                                       test of
                                                                                                            of
                         area, we nonetheless had to set up a census field office just
   a relatively small area,                                                                just for this test
                                                                                                for this test

 . area.
   area. During the actual censuscensus,, the Local Census Office (LCO)·for
                                                                          (LCO)' for this area will be
   responsible for
                 for aa much
                        much larger
                                larger area
                                       area and
                                             and many
                                                  manymoremoreHU  HUs,s , so the fixed costs of
                                                                                             of the LCO
   will contribute less to the average cost per HU.

 Regarding the    OIG' s various criticisms of
              the OIG's                       of the quality of                test,, most seem to
                                                             of maps for this test
 deal
 deal more
       more with
              with printing and scale
                   printing and scale problems.
                                       problems. These comments will be helpful in our
 efforts to try to improve that situation,
                                 situation , but overall we believe that the quality ofof maps
 have been much improved by our Topologically Integrated Geographic Encoding and
 Referencing (TIGER) realignment and the use of      of Global Positioning System (GPS), and
 that the realigned maps used for the 2010 Census Address Canvassing will contribute to
 vastly improved map quality, compared to that of Census Census 2000.
                                                                   2000. In particular,
                                                                            particular, map spot
 placement                                         collection , is undoubtedly much improved
 placement,, whether through GPS or manual collection,
 with respect to spatial accuracy.
                                                                                                      ..




AGENCY RESPONSE                                                                                                      5


 Pages ii and iii

 Regarding the origins ofof the specific change we made to the coverage probe on the
 questionnaire for the 2006 Census Test Test,, several years ago staff          headquarters , the
                                                                     staff from headquarters,
 Denver Regional Office (which has responsibility for census and survey efforts for over
            of the reservations in the country), and various American Indian advocacy
 75 percent of
 groups
 groups attended
        attended aa meeting
                    meeting toto discuss
                                 discuss the the coverage  of American
                                                  coverage of  American Indians.
                                                                            Indians. Based on
 discussions about the extent of   " doubled-up " households (multiple families sharing the
                                of "doubled-up"
 same housing unit), for the 2006 Census Test we developed an additional category for
 our existing undercount detection coverage probe to try and identify households
            additional individuals
 containing additional  individuals oror families
                                           families staying
                                                      staying at
                                                              at the
                                                                  the address.
                                                                      address. We have not yet
 completed our evaluation of                objective,, so we cannot say whether it was
                                this test objective
                             ofthis
               whether we
 successful or whether   we will
                             will use
                                  use itit for
                                            for the
                                                 the 2010
                                                     2010 Census.
                                                          Census. As mentioned above above,, we also
 consulted with our AIAN Advisory Committee on these matters.

 The OIG also criticizes our decision not to use the results from all the coverage probe
 questions (during the VIE          U/E interview) to immediately add or delete people from the
 questionnaire. However,
 questionnaire.           However, based on past experiences and testing, we believed we would
 obtain more accurateaccurate results
                                    results through
                                                through the the approach
                                                                  approach we   tested. With that approach
                                                                            we tested.             approach,, the
 VIE     interview
 D/E interview           was
               was designed     designed
                            to identify        to where
                                        situations identify
                                                        there 
 situations where there might be coverage errors,
                                                                                                            errors
 but the resolution of        of such situations was handled by a separate staff        staff trained more
 extensively in the      the application
                               application of     of our
                                                     our residence
                                                           residence rules.
                                                                        rules. Again
                                                                               Again,, we have not yet completed
 our evaluation of this test objective,    obj ective , so we cannot say whether it was successful or
 whether we will use it for the 2010 Census.

 This report also states the Census Bureau was unaware that enumerators were not reading
 the questions
      questions as
                 as worded.
                    worded. This is not
                                     not correct.
                                         correct. Census Bureau observers also made
 comments about enumerators not reading the undercount coverage question as worded.
                of our evaluation indicate we should use these coverage questions for the
 If the results of
        Census , we will consider revisions to the VIE
 2010 Census,
 2010                                              U/E enumerator training to reinforce the
 need to ask these questions asas worded.

 Page 3
 Page 3



 The    report
 The report        includes
            includes             the
                     the following     following paragraph: "For
                                   paragraph:
                  For each enumerator
                                                                                enumerator,, quality control staff
 conducted three follow-up interviews to verify        verify  that
                                                            that      an enumeration
                                                                 an enumeration occurred..    occurred.... This
 recanvassing was subject to another quality check.        check. If    Ifthe area              again , it was
                                                                                         failed again,
                                                                                 areafailed
 recanvassed one
 recanvassed          one final      time." This paragraph incorrectly describes the components of
                            final time.                                                                        of the
 quality control (QC) program.

 •   First , we conducted a reinterview operation to check a sample of
     First,                                                            of interviews
                     each enumerator.
     conducted by each     enumerator. This involved a follow-up interview with each
     sampled household to verify whether the interviewer had been therethere,, and to
     independently    collect household
     independently collect               and roster
                              household and  roster information.
                                                     information. The results later were
     compared to the data collected in the original interview to determine the final
     outcome of of the reinterview case.
  ...                                                                                                     ...




AGENCY RESPONSE                                                                                                 6



  •     Second , we conducted a dependent quality check of
        Second,                                            of the address updating performed
        in each
           each assignment  area. This involved a verification of
                assignment area.                                of the work for a string of
                                                                                         of eight
        consecutive          units. The starting point for the string of
                     housing units.
        consecutive housing                                           of eight housing units was
        randomly selected within each assignment area.

  •     Third , we conducted an
        Third,                an independent verification
                                              verification operation
                                                           operation for
                                                                      for 100 percent of
                                                                                      of the
        deletes and duplicates identified by each interviewer in all assignment areas.

 Page 13
 Page 13



 The report includes the following statement:
                                     statement:       Bureau officials acknowledge
                                                    "Bureau             acknowledge problems
 with the quality check and intend
                             intend to
                                    to review
                                          review the
                                                  the failure
                                                      failure criteria
                                                              criteria to see if
                                                                       to see if they were too
 stringent. "

 This statement is not
      statement is      accurate. The Census Bureau intends to review the error definitions
                   not accurate.
 (which may have been too broad) for VIE,U/E , not the
                                                   the failure
                                                       failure criteria.
                                                               criteria. For both the Address
 Canvassing and VIE    operations , the QC failure criteria were designed to ensure an
                 U/E operations,
                              of less than 3 percent.
 average outgoing error rate of

 Page 17
 Page 17



  Some update/enumerate staff
 "Some                                    told us
                                     stafftold  us they....                             later follow-up
                                                     they .... were concerned that the later
 wouldfail
 would fail to find  find additional
                             additional household      members. Our examination of
                                         household members.                              the results
                                                                                      ofthe          of
                                                                                             results of
 coverage      follow-up substantiated
 coverage follow-up             substantiated their    concern:
                                              their concern.. though though 16
                                                                            16 housing units answered
  yes " totothethe
 'yes"           testtest  query,
                      query, only  only 1 person was was added...
                                                            added..."

 The Census Bureau does not believe this conclusion can be justified based on the fact
 that only
      only one
           one person was added. Further analysis is needed to understand what occurred
                      was added.
 in the other 15
              15 housing    units. This must include determining if
                  housing units.                                    if the coverage follow-up
 operation identified persons who were potential adds and and,, if so,, why these persons were
                                                                if so
 or
 or were  not added
     were not        to the
              added to   the household  roster. The OIG implies that more people would
                             household roster.
 have been added if if interviewers had been allowed to add people at the time of  of the VIE
                                                                                          U/E
 operation
 operation,, but the report presents no data to substantiate this
                                                             this,, nor is there any evidence
 that persons added would have been correctly added and not added in error.

 Page 19
 Page 19



      the bureau
  "...the   bureau forfeited
                        forfeited the opportunity to obtain valuable information
                                  the opportunity                    information...
                                                                                 ... by not testing....
                                                                                            testing.

 The viability ofusing of using local administrative records against which to compare
 enumeration
 enumeration results.
 results. "




 Although we did not use local administrative lists
                                              lists,, the Census Bureau did in fact test the
 use of administrative
 use of administrative records for this
                                   this purpose
                                        purpose in the 2006 Census    Test. We matched
                                                             Census Test.
 these administrative records to the results of
                                             of the VIE
                                                    U/E interview
                                                        interview,, and for situations that
 indicated a potential coverage problem,
                                problem , we conducted coverage follow-up interviews in
      ...                                                                                          ...




AGENCY RESPONSE                                                                                          7


     an attempt
     an attempt toto identify
                     identify missed persons. Analysis of
                              missed persons.          of these data is still underway, so we are
     not yet in a position to comment on the viability of
                                                       of this approach for the 2010 Census.

         the bureau
     "...the bureau forfeited
                    forfeited the opportunity to obtain valuable information...
                              the opportunity                     information ... by not testing.
                                                                                         testing. ...
     Examination ofofresults
                      results during the operation to identify duplicates and alert quality
     control about possible missing enumerations.
                                      enumerations. "

                    earlier,, the Census Bureau believed that the best way to resolve potential
     As described earlier
     within- household coverage errors (both misses and duplications) was to conduct a
     within-household
              follow-up interview
     separate follow-up    interview using
                                      using specially
                                              specially trained
                                                         trained Census
                                                                 CensusBureau   staff. We did not
                                                                        Bureaustaff.
     believe that the U/E    interview,, nor the QC operation for VIE,
                      UIE interview                                 U/E , was the most effective way
                       (often complex)
     to resolve these (often    complex) situations.   However,, we have not yet completed our
                                           situations. However


     the 2010 Census.

                 of this test objective (conducting a separate follow-up to resolve these cases).
     evaluation ofthis
     Once we dodo,, we will consider this OIG recommendation in making our final decisions for
     the 2010 Census.

     Census Bureau Responses to Recommendations

     The Census Bureau also has the following responses to the OIG recommendations that
     begin on page 21.

            The           of the Census Bureau should
                 Director ofthe
            The Director                       should ensure that 2010 decennial managers
            do the
               the following:
                   following:

     1.
     1.          and document the most cost-effective way to give update/enumerate staff
        Analyze and                                                                           the
                                                                                         staffthe
        tools they need to easily t~averse
                                  traverse assignment areas
                                                       areas and
                                                               andidentify
                                                                   identify housing  units. The
                                                                             housing units.
        bureau should
                should consider
                       consider the
                                 the following
                                     following options
                                                options (see
                                                        (see pages  14- 15).
                                                             pages 14-15).

                                                       continue,, but we do not agree with all
     The Census Bureau agrees that such efforts should continue
     of the specific suggestions offered by the OIG.

          example , we note that
       or example,
     For                    that adding "current   landmarks"" would significantly increase the
                                         " current landmarks
     cost and complexity of                              operation,, including such things as
                          of the Address Canvassing operation
                             manuals , training, and
              development , manuals,
     software development,                        and field  costs. These cost increases must be
                                                       field costs.
     weighed against the potential benefits ofof adding and maintaining this information in our
 .   files.
     files.



                                                        names,"" staff
                                            "community names
     With respect to the suggestion to add "community             staff from our Geography
     Division are investigating
                  investigating the Geographic Names Information System (GNIS) offered by
     the United States Geological
                       Geological Survey    (USGS). Our initial review indicates that locale
                                   Survey (USGS).
     names are indicated by a point on the USGS quadrangles and that in some remote areasareas,
                      exist on
     no locale names exist  on the
                               the GNIS.   However,, we plan to study the relationship between
                                   GNIS. However
     how these data are structured in the GNIS and how we would import and use these data
     in our Master Address
                    Address FilelTIGER
                             File/TIGER system.
                                          system. We also will plan to study aa small
                                                                                small sample
                                                                                      sample of
                                                                                             of
     the GNIS names for accuracy.
AGENCY RESPONSE                                                                                    8

  With respect to the recommendations to provide clear assignment area boundaries and
             information , the Census Bureau will continue its ongoing efforts to improve and
  location information,
  refine
  refine geographic         delineation. We also will continue our efforts to study a number
                      area delineation.
           geographic area
  of options for improved map design, such as sheeting, scaling, symbolization of
  of                                                                               of spatial
  data , labeling and placement of
  data,                              labels , and related map content.
                                  of labels,


 The OIG also recommends "verifying
                              "verifying that every address field has an entry"
                                                                          entry" and
  identifying and prioritizing the important distinguishing structural characteristics to be
 "identifying
 used to describe housing units and emphasize their importance in the training for
 reservation canvassers."
 reservation canvassers.    Of course these recommendations apply to all areas where we
                            Of
 need to rely on a physical description for a housing unit
                                                      unit,, not just
                                                                 just reservations.
                                                                      reservations. We stress
 the importance of
                 of using permanent features (like characteristics ofof the physical structure)
 during our training, but we will review our current training for more appropriate wording
 and
 and examples.
      examples.



 We do not agree with the OIG recommendation that we should conduct the Address
             QC without
 Canvassing QC   without using
                           using GPS
                                 GPS coordinates.
                                       coordinates. One of the tasks of   of the QC operation is
 to check and correct the
                       the map
                           map spots
                                spots obtained
                                      obtained by
                                                by the
                                                    the listers.
                                                         listers. If the QC staff
                                                                             staff do not have
 GPS information
      information,, they will not be able to correct map-spotting errors.

 The OIG also recommends
               recommends"Using       handheld computers or
                               Using handheld                      inexpensive,, off-the-shelf
                                                             or an inexpensive
 device equipped with
                 with GPS in in conjunction with the housing unit GPS coordinate
 information
 information obtained
             obtained during
                        during address    canvassing." The Census Bureau agrees we should
                                address canvassing.
 examine the costs
             costs,, potential benefits,
                               benefits , and risks associated with making this change for the
 2010 Census.

 2. Modify
 2. ModifY update/enumerate
           update/enumerate quality       control procedures to better identifY
                                  quality control                      identify missed
                                                                                missed or
                                                                                       or
    duplicated housing units
                         units, for   example, by conducting quality control
                                 for example,                        control checks across
                areas (see
    assignment areas   (see page
                            page 15).

               Bureau disagrees
 The Census Bureau      disagrees with
                                   with the
                                        the last
                                            last part
                                                 part ofthis
                                                      of this recommendation.
                                                               recommendation. The existing QC
 procedures already allow for the QC listers to identify and correct missed and duplicated
 units , and the purpose of
 units,                   of the QC operation is to verify that the listers are following proper
 procedures and updating the address lists and maps for a particular assignment area.     area. We
 do not believe that expanding the scope of   of QC to include a "search"
                                                                   " search"forfor missed  or
                                                                                       missed   or
 duplicated housing units across assignment areas is feasible
                                                           feasible,, particularly if
                                                                                   if the expanded
                into other areas
 area crossed into         areas for
                                 for which
                                     which different
                                             different listers
                                                       listers and
                                                               and QC
                                                                    QC staff
                                                                         staff are
                                                                               areworking.
                                                                                   working. It
 would also require each QC lister to have address lists and maps for many assignment
 areas , which would be a significant added burden to both the LCO's
 areas,                                                               LCO' s and the QC staff.
AGENCY RESPONSE                                                                                  9



  3.
  3. Reconsider the decision to defer enumeration  of additional individuals and
                                      enumeration. ofadditional                  families
                                                                             andfamilies
     to coverage
        coverage follow-up (see
                           (see page
                                page 18).

 As described earlier
               earlier,, and based on past experiences
                                            experiences,, the Census Bureau believed that the
 best way to resolve potential within-household
                                within-household coverage errors (both misses and
 duplications) was to conduct a separate follow-up using specially trained Census Bureau
 staff. We did not believe that the V/E
 staff.                              U/E interview
                                           interview,, nor the QC operation for VIE,
                                                                                 U/E , was the
 most effective way to resolve these (often complex) situations.
                                                          situations. However
                                                                      However,, we have not
 yet completed our evaluation of   this test
                                 ofthis  test obj ective. Once we do
                                              objective.           do,, we will consider this
 OIG recommendation in making our final decisions for the 2010 Census.

 4.
 4. Enhance enumerator training, supervision
                                   supervision,, and quality control to ensure that the
    coverage question is asked as intended
                                  intended (see
                                            (see page
                                                 page 18).

 The Census Bureau generally agrees with this recommendation,
                                                  recommendation , but has some
                          OIG'ss proposed
 disagreement with the OIG'      proposed solutions.
                                          solutions. Our Field Division will continue its
 efforts to ensure that training and supervisor reviews stress the importance of
                                                                               of asking
 questions as worded
               worded,, but we do not believe there is any practical way to use the QC
 operation to accomplish such a goal.

 5. Following Census 2010
 5.                  2010,, ensure that all
                                        all future
                                            future site
                                                   site tests
                                                        tests contain appropriate
    benchmarks, document how test results will be measured against them
    benchmarks,                                                        them,, and determine
      what contingencies
            contingencies will
                          will be
                                be used
                                   used to  offset problems that
                                         to offset          that emerge
                                                                 emerge as new procedures
                                                                        as new
      are implemented (see page
                            page 18).

 Based on
 Based   on the  OIG' s discussion of what this might entail (see page
            the OIG's                                                page 18), the Census Bureau
 does not believe it is generally possible to agree to this recommendation in the abstract.
 The discussion on page     18 suggests
                      page 18   suggests that the Census Bureau needs to develop specific
            of how often certain problems or events might occur during field operations
 estimates of
 (e. , the number of
 (e.g.,              of households that will have more than five household members),
 monitor production work for the actual levels of  of these problems/events
                                                            problems/events,, and be ready to
 take action if
              if the actual levels differ from expectation.
                                                expectation. We are willing to consider
 specific suggestions ofof this type for specific operations
                                                  operations,, but it is impossible to respond in
 general.

      The            of the Census Bureau should assign a senior headquarters official
           Director ofthe
      The Director
      specific responsibility
      specific                for the

               responsibility for the following:
                                       following:

      1.
      1. Leading the effort to reexamine the bureau's
                                             bureau s complete approach
                                                                  approach to enumerating
         multifamily households
         multifamily households onon American
                                     American Indian
                                               Indian reservations,
                                                       reservations, and ensuring that
                  procedures, training, supervision
         relevant procedures,           supervision,, and quality controls are revised
         accordingly (see
         accordingly  (see page 20).
AGENCY RESPONSE                                                                                10


     2.
     2. Implementing   and monitoring the changes necessary to make the 2010
        Implementing and
                     of American Indians on reservations a process that significantly
        enumeration ofAmerican
        decreases the undercount
                      undercount (see
                                 (see page
                                      page 20).
                                            20).


 As stated earlier
           earlier,, we do not believe this conclusion nor this recommendation areare justified.
 The OIG has not accurately characterized the level of of effort the Census Bureau has made
                                                        reservations,, nor the success we
 since 1990 to improve coverage on American Indian reservations
 experienced in
 experienced  in 2000.
                 2000. Senior Census Bureau officials and key stakeholders (including our
 AIAN
 AlAN Advisory Committee) helped develop and lead those efforts last decade decade,, and are
 committed to repeating and building on those successful efforts for 2010.

 For example
      example,, at the beginning of of this decade we formed a Research and Development
 Planning Team for American Indian Indian and
                                           and Alaska
                                               Alaska Native
                                                       Native Village
                                                               Villageenumeration.
                                                                        enumeration. Senior
 management from multiple divisions participated on that team   team,, including the Director of
                                                                                              of
                         Office,, which has responsibility for enumerating over 75
 our Denver Regional Office                                                        75 percent of
     reservations in
 the reservations  in the
                      the country.
                          country. The primary goal of  of the group has been to develop and
 manage research and development of      of enumeration and outreach strategies for American
 Indian
 Indian Reservations
         Reservations and
                        and Alaska   Native Villages.
                            Alaska Native                                             (several of
                                              Villages. Specific program objectives (several   of
 which were addressed through objectives for the 2006 Census Test) included:

 •   Researching and identifying efforts to enhance the government- to- government
                                                        government-to-government
     relationship with tribal governments to ensure accurate enumeration of
                                                                          of residents
     living in American Indian areas.

 •   Enhancing geographic programs to encourage participation by tribal governments.

 •   Improving outreach and partnership activities to increase participation of AlAN's
                                                                             of AIAN' s
     living in American Indian areas.

 •   Researching and developing new strategies for enumerating American Indian areas.

 •   Reviewing and developing new recruiting strategies for selection and hiring of
     American Indians living on reservations.

 •   Developing methods to ensure better communication with federally recognized tribal
     governments,, including adoption of
     governments                       of the AIAN
                                              AlAN Policy initiative
                                                          initiative,, and by better defining
     the scope of
               of formal consultations with tribal governments.

 This last bullet
           bullet points
                  pointstotoone
                             oneof
                                 ofthe
                                    themost
                                        mostimportant
                                             importantefforts-the
                                                       efforts-the tribal consultation
 meetings that will begin next month and continue through September of            year. The
                                                                          of this year.
                    sponsoring 14 tribal consultation meetings with tribal governments
 Census Bureau is sponsoring
 throughout
 throughout Indian
             Indian Country
                      Country and
                               and Native
                                   Native Alaska.       of the key outcomes we seek from
                                          Alaska. Some ofthe
 these government-
       government-to-government
                     to- government meetings include:

     •   Improve communications with tribal officials.
AGENCY RESPONSE                                                                             11


     •   Create an opportunity for AlAN
                                      AIAN governments to raise issues
                                                                 issues and Census Bureau
                 insight into
         to gain insight  into key
                               key issues.
                                   issues.
     •   Build partnerships and collaboration on issues ofof mutual concern.
     •   Identify issues requiring input and participation.
     •   Promote innovative methods for further
                                           further consultation.
     •   Involve tribes in the decision-making process.
     •   Allow for
                for aa two-way
                       two-way process.
                                 process.
     •   Build a permanent relationship between tribal governments
                                                         governments and
                                                                       and the Census
                                                                               Census
         Bureau.

                                                      decade,, and many senior Census
 Activities have taken place on all these fronts this decade
 Bureau officials have been and will continue to be engaged in efforts that require
 expertise on many fronts.
